<html>
<title> - CONFRONTING CHILDHOOD OBESITY: CREATING A ROADMAP TO HEALTHIER FUTURES</title>
<body><pre>[Senate Hearing 110-962]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-962
 
 CONFRONTING CHILDHOOD OBESITY: CREATING A ROADMAP TO HEALTHIER FUTURES

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

  EXAMINING CHILDHOOD OBESITY, FOCUSING ON HOW TO CREATE A ROADMAP TO 
        HEALTHIER FUTURES FOR YOUNG PEOPLE GROWING UP IN AMERICA

                               __________

                    DECEMBER 3, 2008 (Santa Fe, NM)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate


                  U.S. GOVERNMENT PRINTING OFFICE
45-808                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

        Ilyse Schuman, Minority Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Children and Families

               CHRISTOPHER J. DODD, Connecticut, Chairman

JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             JUDD GREGG, New Hampshire
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
EDWARD M. KENNEDY, Massachusetts     MICHAEL B. ENZI, Wyoming (ex 
(ex officio)                         officio)

                David P. Cleary, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                      WEDNESDAY, DECEMBER 3, 2008

                                                                   Page
Bingaman, Hon. Jeff, a U.S. Senator from the State of New Mexico, 
  opening statement..............................................     1
Udall, Hon. Tom, a U.S. Representative from the State of New 
  Mexico, opening statement......................................     2
Sanchez, Eduardo, M.D., FACP, Vice President and Chief Medical 
  Officer, Blue Cross and Blue Shield of Texas, Richardson, TX...     4
    Prepared statement...........................................     7
 Thompson, Joseph, M.D., M.P.H., Associate Professor, the 
  Colleges of Medicine and Public Health at the University of 
  Arkansas for Medical Sciences, Chief Medical Officer for the 
  State of Arkansas, Little Rock, AR.............................    12
    Prepared statement...........................................    16
Morris, Patricia McGrath, Ph.D., Director, New Mexico Interagency 
  for the Prevention of Obesity with the New Mexico Department of 
  Health, Santa Fe, NM...........................................    26
    Prepared statement...........................................    31
Walters, Lynn, Executive Director, Cooking With Kids, Santa Fe, 
  NM.............................................................    37
    Prepared statement...........................................    40

                                 (iii)

  


                     CONFRONTING CHILDHOOD OBESITY:
                    CREATING A ROADMAP TO HEALTHIER
                                FUTURES

                              ----------                              


                      WEDNESDAY, DECEMBER 3, 2008

                                       U.S. Senate,
Subcommittee on Children and Families, Committee on Health, 
                            Education, Labor, and Pensions,
                                                      Santa Fe, NM.
    The committee met, pursuant to notice, at 10:00 a.m. in 
Room 321, New Mexico State Capitol Building, 490 Old Santa Fe 
Trail, Santa Fe, New Mexico, Hon. Jeff Bingaman, presiding.
    Present: Senator Bingaman.

                 Opening Statement of Senator Bingaman

    Senator Bingaman. Soon-to-be Senator Udall and I are glad 
to be here and to welcome everybody.
    This is a hearing of the Subcommittee on Children and 
Families of the U.S. Senate Health, Education, Labor, and 
Pensions Committee. It is focused on a very important issue, in 
my view, that is childhood obesity and how we can create a 
roadmap to healthier futures for young people growing up in 
this country.
    We ought to thank whoever arranged to let us use this 
wonderful hearing room here in the Capitol. They have much 
nicer hearing rooms here than we do in Washington.
    [Laughter.]
    Also much nicer art on the walls, I would point out.
    Now we have four great panelists here, and I will introduce 
them in just a minute, who are going to give us their views on 
this important issue. The idea here is to bring together 
national and State leaders in combating childhood obesity to 
talk about what are the most effective strategies available to 
our State and to other States and also to communities, and to 
the country as a whole.
    I think we are all aware of the problem. Over the past two 
decades, the prevalence of childhood obesity has grown to 
staggering proportions in this country. Almost 32 percent of 
American children and adolescents--that is 23 million in 
total--are considered overweight or obese.
    The problem is even worse among certain minority groups. 
Hispanic and Native American communities are disproportionately 
affected by this epidemic.
    Obviously, it is a costly problem for us in New Mexico. It 
is a costly problem for our healthcare system, healthcare 
delivery system generally.
    According to the Centers for Disease Control, the rate of 
new diabetes cases nearly doubled in the United States in the 
last 10 years. About 80 percent of the cases are type 2 
diabetes, the form that is linked to obesity.
    The findings echo geographic trends seen with obesity and 
physical inactivity, which are also tied to heart disease. In 
total, more than 23 million Americans have diabetes today.
    It is not just type 2 diabetes that is the problem. Also, 
the incidence of high blood pressure and progressive liver 
disease, these are ailments that used to be only associated 
with adults. Their incidence is rising among overweight 
children.
    We need to have policies to address this. To this end, I 
introduced a bill in the Senate this year called the Obesity 
Prevention, Treatment, and Research Act of 2008. The 
legislation would develop a national strategy to organize our 
efforts to combat childhood and adult obesity.
    Let me just acknowledge Frederick Isasi and Dan Derksen. 
Dan was working as a fellow in our office, helping with the 
preparation of this. Frederick does all of our healthcare 
issues and worked on this as well.
    This legislation would help develop a national strategy. It 
would result in increased collaborations and collective actions 
across agencies, among private entities, individuals, and 
communities. We have also tried to champion efforts to improve 
access for beneficiaries in Medicare and Medicaid and other 
Federal programs to nutrition counseling, as well as improved 
training and access to prevention services and physical 
education programs.
    One other related effort we have made in the Congress is to 
increase funding for the Fresh Fruits and Vegetables Program in 
New Mexico schools. This year, that program will receive 
$700,000 in Federal funding. It is scheduled to increase under 
the Farm bill that we passed, up to $2 million by 2012 to 
provide healthy foods to children in more of our schools.
    We have a great group of panelists, as I indicated. Before 
I introduce our panelists, let me call on Congressman Udall, 
soon-to-be Senator Udall for his comments.
    This is a group of issues that he has been vitally 
interested in during his entire time in the Congress, and I 
look forward to working with him on these when he gets sworn in 
to the Senate on the 6th of January.
    So go right ahead.

           Statement of Hon. Tom Udall, U.S. Representative 
                      from the State of New Mexico

    Mr. Udall. Thank you very much, Senator Bingaman. It is a 
pleasure to be here with you today, and it is a real honor for 
you to have invited me.
    Distinguished members in the panel and guests, it is also 
an honor to be here with you, especially to discuss an issue 
that I think is of such great importance to both New Mexico and 
the Nation.
    In Senator Bingaman's opening comments and the written 
testimony of our witnesses, the challenges we face are outlined 
starkly and clearly. For most of us here today, this crisis is 
not news. For years, we have seen the headlines--``Healthcare 
Crisis Looms,'' ``Diabetes Epidemic,'' ``Increase in Childhood 
Obesity.''
    Everyone seems to have a solution, but the one that could 
make a real difference--prevention--is only paid lip service. 
We say an ounce of prevention is worth a pound of cure, but 
then we fail to re-invent our healthcare policy to make 
prevention a cornerstone.
    That is why it is so refreshing to read your testimony 
today. All of the work you are doing is very important and is 
greatly needed by our Nation. I think what you are trying to do 
is get our healthcare system on the right track.
    I have heard some people say that we don't have a 
healthcare system, we have a sick care system and that we 
should really orient ourselves toward prevention. I notice, Dr. 
Sanchez, you say in your testimony, your written testimony, 
``Shifting the healthcare paradigm away from treating diseases 
after they occur and toward preventing them from ever 
occurring.'' That statement, I think, is particularly poignant.
    Senator Bingaman and I have been saying this for years, and 
today, we spend 95 percent of our healthcare dollars on 
treating chronic and acute illnesses, many of which could be 
prevented in the first place. In other cases, we could at least 
delay the onset of disease for a number of years and provide a 
higher quality of life.
    The dollars we spend on prevention are miniscule, and we do 
not track the outcomes in a meaningful way. This Nation needs a 
new approach to healthcare, which puts prevention front and 
center. The key to prevention is personal responsibility and 
personal action. If people are given the facts and 
alternatives, they can take charge of their health.
    Senator Bingaman, like you, I am very eager to hear the 
witnesses and appreciate, once again, being here with you 
today.
    Senator Bingaman. Great. Thank you very much.
    Why don't we do this? Let me introduce and call up two of 
our witnesses, and we will hear from them and ask them 
questions. Then we will call forward the other two witnesses 
and do the same thing with them.
    First, let me call Eduardo Sanchez up and let me say a 
little bit about his background. He is currently the vice 
president and chief medical officer at Blue Cross Blue Shield 
of Texas. He serves on the Institute of Medicine on the 
National Academy's Committee on Progress in Preventing 
Childhood Obesity. He is chairman of the IOM's Childhood 
Obesity Prevention: Actions for Local Government Project.
    So he has spent a lot of time on this issue. If you would 
just take a seat up there, that would be great.
    Our other witness on this first panel will be Joseph 
Thompson, who is a physician, also the surgeon general of the 
State of Arkansas, the director of Arkansas Center for Health 
Improvement. He is board certified in both pediatrics and 
preventive medicine, serves on the faculty of the University of 
Arkansas for Medical Sciences.
    He has been instrumental in the very aggressive effort that 
the State of Arkansas has made to try to deal with this 
problem. I had the good fortune to hear his testimony on this 
subject when he testified to our full Health and Education 
Committee in the Senate earlier this year.
    Thank you both for being here. I guess, Eduardo, why don't 
you go ahead and start, and give us your thoughts as to--I 
guess there are microphones that are picking this up? OK. 
Terrific.
    Well, please, go right ahead.

 STATEMENT OF EDUARDO SANCHEZ, M.D., FACP, VICE PRESIDENT AND 
  CHIEF MEDICAL OFFICER, BLUE CROSS AND BLUE SHIELD OF TEXAS, 
                         RICHARDSON, TX

    Dr. Sanchez. Good morning, Mr. Chairman and Senator-elect 
Udall. Congratulations to you, sir.
    Mr. Udall. Thank you.
    Dr. Sanchez. My name, as stated, is Eduardo Sanchez. I am 
vice president and chief medical officer of Blue Cross Blue 
Shield of Texas, a division of Health Care Service Corporation, 
a non-investor-owned health plan.
    I previously served as the Texas commissioner of health 
from 2001 to 2006, leading the Texas Department of Health and 
then the Texas Department of State Health Services as the State 
health officer.
    I am here today, however, as a member of the Institute of 
Medicine's Standing Committee on Childhood Obesity Prevention. 
I am grateful for the opportunity to appear before you today 
and thank you, Senator Bingaman, for your leadership.
    This morning, I want to focus my comments on solutions to 
prevent, to reverse childhood obesity in the United States. In 
order to succeed and to offer parents some assurance that our 
children will outlive us, we need to concentrate on four key 
areas--leadership and commitment at the highest levels, 
monitoring the problem, identification and funding of best 
practices, and evaluation of our efforts.
    Please allow me to set the stage. Health experts have 
warned that for the first time, children today are in danger of 
having a shorter lifespan than their parents.
    More children are obese now than at any other time in 
history and are experiencing unprecedented levels of type 2 
diabetes, something that was called ``adult onset'' diabetes 
when Dr. Thompson and I were going to medical school, and early 
risk factors for cardiovascular disease. A recent study found 
that the arteries of obese 10-year-olds resemble those of 45-
year-olds.
    Obesity is more prevalent among poor and nonwhite children. 
That is important because the demographic shift in our Nation, 
particularly the race/ethnicity shift, is one that will shift 
the burden of obesity fairly significantly in some States more 
than others. As Senator-elect Udall said already, prevention is 
the key to reversing childhood obesity trends.
    According to the Department of Health and Human Services, 
obesity and overweight in U.S. adults cost from $69 billion to 
$117 billion annually. The State of Texas decided to look at 
Texas cost of obesity and estimated that the cost will increase 
from around $10.5 billion today to $39 billion by the year 2040 
if current trends continue. That is a doubling in the cost 
because the population will have quadrupled.
    Obesity cost Texas business an estimated $3.3 billion in 
2005 and could cost employers $15.8 billion by the year 2025 if 
trends continue. These are very conservative figures.
    Point being, obesity is a health issue and an economic 
issue. It is time for a national strategy to reverse childhood 
obesity in the United States. Your bill addresses that national 
strategy.
    I want to suggest that we could use the Federal pandemic 
influenza efforts that started in 2005 as a model. The United 
States should develop a comprehensive, coordinated plan led by 
the U.S. Departments of Health and Human Services, Agriculture, 
and Education, and that involve every department and agency of 
the Federal Government, including the legislative branch; State 
and local governments, including health departments; 
businesses, foundations, communities, schools, families, and 
individuals.
    The plan must outline clear roles, responsibilities, and 
objectives. In Texas, a State strategic plan is driving efforts 
in the State. The Texas Department of State Health Services, as 
part of that, developed what is called a Texas Obesity Policy 
Portfolio to help decisionmakers decide what makes sense, what 
doesn't make sense.
    Much like the challenge of preparing for a flu pandemic, 
our leaders should challenge the entire Nation to share in the 
responsibility to reverse childhood obesity and do their part 
to improve our Nation's health. We must make the healthy choice 
the easy choice by giving our communities, our schools, 
businesses, and the people of this country the tools they need 
to make it easier to follow the dietary and physical activity 
guidelines for Americans.
    Effectively addressing childhood obesity requires adequate 
monitoring of national, regional, State, and local obesity 
prevalence rates and its related risk factors. Doing so will 
make the case for what works and what does not work.
    The evidence gathering must extend beyond the public health 
and healthcare systems, however, to include food systems, 
education systems, and transportation systems. We need evidence 
of the effectiveness of prevention interventions, of clinical 
treatment interventions, of system-level interventions, and of 
all of those interventions in the context of diverse 
communities and stage of child development.
    The CDC National Center for Health Statistics and some 
individual States have developed a monitoring system for some, 
but not all of those data needs. Data and information systems 
are the backbone for informed policymaking. Yet they are under-
resourced and sometimes under-utilized. They track critical 
health risk behaviors and health problems, and they are used to 
plan and evaluate responses and to target populations with the 
greatest needs.
    Texas has funded the School Physical Activity and 
Nutrition, SPAN, Survey Project, a statewide childhood obesity 
surveillance system, using Federal funds. Preliminary data show 
that the prevalence of obesity in Texas among 4th, 8th, and 
11th grade students is higher than the national average. The 
trend among fourth graders appears to be leveling off and 
possibly decreasing in some parts of Texas, namely El Paso, 
where implementation and funding of coordinated school health 
and community-wide nutrition and physical activity programming 
has made a difference.
    Texas is also now requiring fitness assessments among 
children in grades 3 through 12. FITNESSGRAM assesses aerobic 
capacity, strength, and flexibility. Last year, two thirds of 
3.4 million students were tested. Less than one third of 3rd 
grade students are fit, and by 12th grade, less than 10 percent 
of students met the health standards in all six tests. We are 
going backwards as our children go through the school system.
    We can ill-afford to treat the ever-increasing numbers of 
medical conditions associated with increasing childhood 
obesity. In Texas, type 2 diabetes as a pediatric condition is 
no longer an uncommon finding. Fifty percent of the new 
pediatric diabetes in some parts of our State are type 2 
diabetes, again, a condition that was not seen in children when 
Dr. Thompson and I were going to medical school.
    Prevention of childhood obesity is the key to a healthier 
future for the United States. We have enough evidence about 
what works to act now, but we need the political leadership, 
more political leadership like yours, Senator Bingaman, to 
adequately fund programs that have proven effectiveness.
    In Texas, we have seen results with CATCH, the Coordinated 
Approach to Child Health, the coordinated school health program 
for elementary schools. In 1997, based on the results of a 
clinical trial and subsequent 3-year follow-up study, the board 
of the Paso del Norte Health Foundation approved the first of 
two grants for CATCH in El Paso.
    CATCH focuses on balanced nutrition, physical activity, 
health education, and tobacco avoidance and proved successful 
through 
its coordinated, multi-platform approach--classroom 
instruction, healthy cafeteria lunches, activity-based physical 
education classes, at-home parent involvement, and after-school 
community-based programs.
    CATCH does make a difference. The Texas SPAN survey of 
fourth grade students in El Paso County suggests that CATCH was 
a contributing factor to a 7-point drop in student obesity 
rates measured from 2000 at 25 percent to 2005 at 18 percent. 
Paso del Norte Health Foundation funded CATCH at $4.2 million 
over a 7-year period and estimated the cost of implementation 
at $10 per student per year.
    Not every community has a benefactor like Paso del Norte 
Health Foundation. Nevertheless, over 2,100 Texas elementary 
schools and nearly 10,000 schools nationwide have been trained 
in the use of CATCH.
    Here, in New Mexico, the New Mexico Plan to Promote 
Healthier Weight calls for increasing the number of schools 
offering CATCH. New Mexico health, education, and cooperative 
extension agencies are working together to implement CATCH in 
grades K through 5. Funded largely with tobacco settlement 
funds, each CATCH school is encouraged to include all 
components of the intervention.
    In 2008, a total of 45 elementary schools and after school 
programs were funded to provide the CATCH program. Not only 
does CATCH improve diet, physical activity, and obesity, but 
Texas researchers have documented significant improvements on 
Stanford achievement test scores.
    Among the group for predominantly poor Latino elementary 
school students, the CATCH classroom physical activity 
intervention produced significant increases in achievement in 
math problem solving. Among children identified as not adapting 
well to school, CATCH produces significant improvements in 
Stanford math and reading scores.
    If we want our children to lead healthy, productive lives, 
we need a national strategy to address childhood obesity. The 
challenge to our Nation's future, health, and economic 
prosperity warrants Federal leadership to bring together all 
levels of Government, private and nonprofit sectors, as well as 
parents and teachers, to emphasize wellness and enhance 
nutrition and physical activity.
    Fully funding and implementing coordinated school health 
programs like CATCH and others--and there are others--with a 
proven track record is low-hanging fruit that can assure our 
communities and our Nation a large cohort of healthier children 
and a much brighter future.
    A national response to the obesity epidemic should be 
commensurate with the scope of the problem. The obesity 
epidemic should be met with a fire hose instead of a garden 
hose, with boots on the ground to mobilize communities and to 
assure sustained application of the evidence. Anything less 
threatens our economic welfare and the very future of our 
children.
    Thank you again for the opportunity to testify.
    [The prepared statement of Dr. Sanchez follows:]

          Prepared Statement of Eduardo J. Sanchez, M.D., FACP

    Good morning, Mr. Chairman and Members of the Senate HELP 
Committee. My name is Eduardo Sanchez, Vice President & Chief Medical 
Officer of Blue Cross Blue Shield of Texas, a division of Health Care 
Service Corporation, and former Texas Commissioner of Health. I am here 
today, however, as a member of the Institute of Medicine Standing 
Committee on Childhood Obesity. I am grateful for this opportunity to 
appear before you today on behalf of the children of Texas, my home 
State, and the children of the United States.
    I would first like to thank the Chairman and members of the 
subcommittee for your past support of programs and initiatives that 
invest in our Nation's young people and for the opportunity to testify 
today on a very serious issue--the declining health of America's 
children, which is closely linked to our Nation's obesity epidemic.
    Recent natural disasters such as the fires in California and 
Hurricane Ike in Texas shine a spotlight on the critical role that 
public health plays in preparing our communities and in the relief 
efforts that followed. In these events, storms or fires swelled out of 
control with little or no warning, and with little time to respond. 
Inadequate preparation and inadequate heed to warnings of some people 
in communities contributes to the protracted recovery from these 
disasters.
    In the case of obesity, Mr. Chairman, we see the forecast, and 
``perfect storm'' conditions are brewing. The effects of this storm 
will be more devastating than the wind and waves in Louisiana, 
Mississippi, and Texas. Its damage will impact generations to come. 
What will be lost is more precious than buildings, houses, and 
infrastructure: it is human life. Unlike our natural disasters, the 
good news is we can control this storm.
    Today, I am here to discuss the extent of childhood obesity and 
diabetes in America, their associated health and economic impact, and 
my thoughts on coordinating the strategic national response necessary 
to confront this growing health problem. In order to succeed and to 
offer American families assurance that our children will outlive us, we 
need to concentrate on four key areas: leadership and commitment at the 
highest levels, monitoring of the problem, identification and funding 
of best practices, and evaluation of the effects of our strategic 
response.

                          SCOPE OF THE PROBLEM

    Recognizing that health behaviors acquired during youth follow into 
adulthood, the current health status of youth is alarming. Health 
experts have warned that, for the first time, children today are in 
danger of having a shorter lifespan than their parents.\1\ More 
children are obese now than at any other time in history and are 
experiencing unprecedented levels of type 2 diabetes and early risk 
factors for cardiovascular disease.
---------------------------------------------------------------------------
    \1\ Olshansky, S Jay; Passaro, Douglas J.; Hershow, Ronald C.; 
Layden, Jennifer; Carnes, Bruce A.; Brody, Jacob; Hayflick, Leonard; 
Butler, Robert N.; Allison, David B.; Ludwig, David S. A Potential 
Decline in Life Expectancy in the United States in the 21st Century. 
Obstetrical & Gynecological Survey. 60(7):450-452, July 2005.
---------------------------------------------------------------------------
    Overall, approximately 23 million children in the United States are 
obese or overweight, and rates of obesity have nearly tripled since 
1980, from 6.5 percent to 16.3 percent.\2\ Eight of the ten States with 
the highest rates of obese children are in the South.\3\ Obesity is 
striking poor and non-White children at much higher rates compared to 
whites and wealthier populations. In Texas, the School Physical 
Activity and Nutrition surveillance study in 2000-2001 found that 35 
percent of Hispanic 4th grade boys, 20 percent of African-American, and 
only 14 percent of white were obese.\4\ We should set as a a national 
goal childhood obesity rates of 5 percent, the level prior to the start 
of this epidemic.
---------------------------------------------------------------------------
    \2\ Ogden, C.L., M.D. Carroll, and K.M. Flegal. ``High Body Mass 
Index for Age Among U.S. Children and Adolescents, 2003-2006.'' Journal 
of the American Medical Association 299, no. 20 (2008): 2401-2405.
    \3\ U.S. Department of Health and Human Services, Health Resources 
and Services Administration, Maternal and Child Health Bureau. National 
Survey of Children's Health 2003. Rockville, MD: U.S. Department of 
Health and Human Services, 2005, http://www.mchb.hrsa.gov/overweight/
techapp.htm (accessed Nov 20, 2008)
    \4\ Hoelscher DM, et al., 2004. Measuring the prevalence of 
overweight in Texas school children. American Journal of Public Health; 
94(6): 1002-1008.
---------------------------------------------------------------------------
    As a result of increasingly overweight Americans, the United States 
is also experiencing an epidemic of diabetes. Type 2 diabetes is on the 
rise among children and accounts for almost half of new cases in 
teenagers in some areas of the country. CDC projects that one in three 
children born in the United States is expected to develop diabetes in 
their lifetimes. However, the projection for Hispanic/Latino 
populations is even more alarming: one in every two. This is a 
statistic we take very seriously in the State of Texas, where it is 
projected that by 2025, the non-White population will exceed the White 
population (as is already the case in California, Hawaii, New Mexico, 
and the District of Columbia). These four States and the District of 
Columbia represent one quarter of the total U.S. population, and we 
know that unhealthy eating and physical inactivity are risk conditions 
that are disproportionately represented among some of our States' 
racial and ethnic groups.\5\
---------------------------------------------------------------------------
    \5\ U.S. Department of Health and Human Services (USDHHS). The 
Surgeon General's Call to Action to Prevent and Decrease Overweight and 
Obesity. Washington, DC: USDHHS, 2001.
---------------------------------------------------------------------------
    A recent study shows that among children as young as 10 years old, 
increased body fat is related to arterial stiffness in otherwise 
healthy children, independent of blood pressure and heart rate.\6\ The 
study shows that obese 10-year-olds have the arterial thickness of many 
45-year-olds. Dr. Henry McGill, the noted pathologist from San Antonio, 
reports that 77 percent of young men killed in the Korean war had 
advanced atherosclerosis; 18 years later, Vietnam casualties had a 
similar prevalence of atherosclerosis. Dr. McGill's research shows that 
a substantial proportion of today's young people have coronary artery 
lesions with the potential to develop premature coronary heart 
disease.\7\ The recent recommendation by the American Academy of 
Pediatrics for cholesterol screening of kids--with the possibility of 
prescribing cholesterol lowering drugs for young children--is just 
another tragic example of how much obesity has negatively affected the 
health of our children.
---------------------------------------------------------------------------
    \6\ Sakuragi, S, et al. 2008. Influence of Adiposity on Arterial 
Stiffness in Healthy Children. Circulation 118: S_1115-a.
    \7\ McGill Jr H, et al., 2008. Preventing Heart Disease in the 21st 
Century. Implications of the Pathobiological Determinants of 
Atherosclerosis in Youth (PDAY) Study. Circulation, 2008;117:1216-1227.
---------------------------------------------------------------------------
                            ECONOMIC IMPACT

    These health impacts come at a great cost to our Nation. According 
to the Department of Health and Human Services, obese and overweight 
adults cost the United States anywhere from $69 billion to $117 billion 
per year.\8\ One study found that obese Medicare patients' annual 
expenditures were 15 percent higher than those of normal or overweight 
patients. The cost of childhood obesity is also growing. Between 1979 
and 1999, obesity associated hospital costs for children (ages 6 to 17 
years) more than tripled, from $35 million to $127 million. In a report 
published by the Texas Department of Health, the estimated costs of 
health care, lost work days, and premature death related to overweight 
and obesity in Texas adults may increase from $10.5 billion in 2001 to 
$39 billion by 2040 if the obesity epidemic continues.\9\ This is a 
call to action for all States.
---------------------------------------------------------------------------
    \8\ U.S. Centers for Disease Control and Prevention. ``Preventing 
Obesity and Chronic Diseases Through Good Nutrition and Physical 
Activity.'' U.S. Department of Health and Human Services, http://
www.cdc.gov/nccdphp/publications/factsheets/Prevention/obesity.htm. 
(accessed Nov 20, 2008).
    \9\ The Burden of Overweight and Obesity in Texas, 2000-2040, 2003. 
Texas Department of State Health Services. 2005.
---------------------------------------------------------------------------
    The poor health of Americans of all ages is putting the Nation's 
economic security in jeopardy. More than a quarter of U.S. health care 
costs are related to physical inactivity, overweight and obesity. 
Health care costs of obese workers are up to 21 percent higher than 
non-obese workers. Obese and physically inactive workers also suffer 
from lower worker productivity, increased absenteeism, and higher 
workers' compensation claims. Obesity cost Texas businesses an 
estimated $3.3 billion in 2005 and could cost employers $15.8 billion 
annually by 2025 if the trend continues unchecked.\10\ To maintain our 
economic competitiveness and our general health and well-being, we must 
improve the health of America's next generation. To do that, we must 
improve diet and increase physical activity levels.
---------------------------------------------------------------------------
    \10\ Susan Combs, Texas Comptroller's Office, Counting Costs and 
Calories Measuring the Cost of Obesity to Texas Employers March 2007 
http://www.window.state.tx.us/specialrpt/obesitycost/ (accessed Nov 20, 
2008).
---------------------------------------------------------------------------
                               LEADERSHIP

    Clearly, it has taken decades for the child obesity epidemic to 
develop, and it will take a coordinated effort to begin to mitigate it. 
Today, in the United States, we have no national, coordinated effort to 
combat obesity. As a country, we are falling behind even as nations 
adopt solutions, such as the Foresight \11\ project, which is centrally 
funded to produce a sustainable response to obesity in the U.K. over 
the next 40 years. The United States needs a comprehensive, realistic 
plan (akin to the Nation's avian influenza pandemic planning efforts) 
that involves every department and agency of the Federal Government, 
State and local governments, businesses, communities, schools, 
families, and individuals. It must outline clear roles and 
responsibilities.
---------------------------------------------------------------------------
    \11\ Foresight. Tackling Obesities: Future choices http://
www.foresight.gov.uk/OurWork/ActiveProjects/Obesity/KeyInfo/Index.asp 
(accessed Nov 20, 2008).
---------------------------------------------------------------------------
    The U.S. economic situation, while dire, provides a window of 
opportunity to act boldly, implement new programs and policies, and 
achieve health-related goals. Now, more than ever, when critical 
economic and social decisions are being made, the positive and negative 
impact on the health of Americans must be considered. Our leaders 
should challenge the entire Nation to share in the responsibility and 
do their part to help improve our Nation's health. All levels of 
government should develop and implement policies to make the healthy 
choice the easy choice--by giving our communities, our schools, 
American businesses, and the American people the tools they need to 
make it easier to follow the Dietary \12\ and Physical Activity \13\ 
Guidelines for Americans. Our leaders must take up the challenge of 
making safe, affordable, healthy food choices and recreational places 
available for all Americans.
---------------------------------------------------------------------------
    \12\ USDA, Dietary Guidelines for Americans, http://www.health.gov/
DietaryGuidelines/ (accessed Nov 20, 2008).
    \13\ CDC, Physical Activity Guidelines for Americans http://
www.health.gov/PAGuidelines/ (accessed Nov 20, 2008).
---------------------------------------------------------------------------
    The trend, over the past 5 years, has been to decrease our Federal 
investments in child health.\14\ Real discretionary spending on 
children has declined by more than 6 percent since 2004, while at the 
same time all other non-defense discretionary spending has increased by 
more than 8 percent. Only one penny of every new, real non-defense 
dollar spent by the Federal Government has gone to children and 
children's programs. Our children are our future and they deserve 
better.
---------------------------------------------------------------------------
    \14\ First Focus. Childrens Budget 2008. http://www.firstfocus.net/
pages/3391/ (accessed Nov 20, 2008).
---------------------------------------------------------------------------
                               MONITORING

    Effectively addressing childhood obesity will require continued 
investments in the development of evidence, measures, and longitudinal 
data. The evidence needed spans all levels of the public health and 
health care systems: we need annual national, regional, and State-level 
monitoring of child obesity and its related risk factors, we need 
evidence of the effectiveness of prevention interventions, evidence of 
the effectiveness of clinical treatment interventions, evidence of the 
effectiveness of system level interventions, and evidence of the 
effectiveness of these interventions in the context of diverse 
communities and stage of child development.
    The CDC National Center for Health Statistics and some individual 
States have developed information systems for some, but not all, of 
these pressing data requirements. These systems are the backbone for 
informed policymaking. They track critical health risk behaviors, 
providing timely data for State and metro areas, which are used to 
identify health problems, plan and evaluate responses, and target 
populations with the greatest needs. These measures need to be 
coordinated and consistent throughout the States, so that data can be 
used for comparisons by State and across the Nation.
    In Texas, over the past few years, the Department of State Health 
Services has been able to fund the development and implementation of a 
statewide childhood obesity surveillance system called the School 
Physical Activity and Nutrition (SPAN) survey project using Preventive 
Health and Health Services Block Grant funds. Thus far, two surveys 
have been funded by the block grant in 2000-2002 and 2004-2005, at a 
total cost of about $1.5 million. Using these data, Texas has been able 
to establish a baseline prevalence rate for childhood obesity and 
observe trends over time. Preliminary data show that although the 
prevalence of obesity in Texas among 4th, 8th, and 11th grade students 
is higher than the national average, the trend among 4th graders 
appears to be leveling off and possibly decreasing, especially in 
certain regions of the State. This trend is reflected in El Paso, TX 
where extensive implementation and funding of coordinated school health 
and community-wide nutrition and physical activity programming have 
occurred for at least 5 years.
    In 2007, Texas added to it's monitoring system by requiring fitness 
assessments among children in grades 3-12. FitnessGram is composed of 
six measures: aerobic capacity; body composition; abdominal strength 
and endurance; trunk strength and flexibility; upper body strength and 
endurance; and flexibility. During the program's first year, 2.6 of the 
almost 3.4 million students were tested. Preliminary results show that 
only 32 percent of third-grade girls and 28 percent of third-grade boys 
reached the ``Healthy Fitness Zone.'' By 12th grade, just 8 percent of 
the girls and about 9 percent of the boys met the health standards in 
all six tests. Clearly our children need some help.

                               TREATMENT

    Reimbursement for medical services related to childhood obesity is 
emerging as a major issue surrounding childhood obesity management 
throughout the country.\15\ The bad news is the likelihood of extremely 
obese children (or adults) ever returning to normal weight is small 
because treatment strategies, in the long term, remain largely 
ineffective.\16\ This includes the use of radical, expensive, and 
invasive interventions such as gastric bypass and stomach lap-banding 
surgeries. Treatment, while necessary for many, cannot be expected to 
solve the child obesity epidemic.
---------------------------------------------------------------------------
    \15\ National Initiative for Children's Health Care Quality. 
Childhood Obesity: The Role of Health Policy, http://www.nichq.org/
NICHQ/Programs/ConferencesAndTraining/Childhood
ObesityActionNetwork.htm (accessed Nov 20, 2008).
    \16\ Summerbell CD, et al., 2003. Interventions for treating 
obesity in children. Cochrane Database Syst Rev;(3):CD001872.
---------------------------------------------------------------------------
                               PREVENTION

    The time is right to look at innovative ways to reduce and prevent 
child obesity and the staggering long-term health and productivity 
costs. We need a paradigm shift away from treating diseases after they 
occur and towards preventing them from ever occurring. By definition, 
prevention of chronic diseases means focusing on the generation growing 
up, the children that are overweight at age 2 or 3 and living with type 
2 diabetes and high blood pressure by the time they are 8 years old. We 
cannot afford to wait. We need to place prevention at the center of our 
health priorities.
    We cannot afford to wait for our healthy children to become obese 
and seek medical treatment for diabetes, cardiovascular disease, sleep 
apnea, gall bladder disease, and orthopedic problems. In 2004, we spent 
$117 billion on conditions related to obesity and $132 billion on type 
2 diabetes. What if we invested that kind of money to make healthy 
choices the easy choices? To fully fund school-and-community based 
health programs? To build parks, playgrounds, and community-supported 
agriculture and local farmers markets? We might begin to reverse the 
alarming health trends we are seeing in our children. What if we could 
put that money into preventive medicine, after school programs, senior 
recreation centers, and workplace wellness? If we want to see a bright 
and healthy future, we must change the way we think about health 
priorities and focus on prevention.
    We do not need more data to act now--just the political will to 
adequately fund programs that work. In Texas, we've seen prevention in 
action with an elementary school program called the Coordinated 
Approach To Child Health (CATCH). Based on the solid results of a 
clinical trial \17\ and the subsequent 3-year follow-up study,\18\ in 
1997 the Board of the Paso del Norte Health Foundation approved the 
first two grants for the CATCH Program in El Paso, TX. CATCH quickly 
gained momentum and support because of its focus on balanced nutrition, 
physical activity, health education, and tobacco avoidance. CATCH 
proved successful through its coordinated, multi-platform approach--
classroom instruction, healthy cafeteria lunches, activity-based 
physical education classes, at-home parent involvement, and after-
school community-based programs. CATCH does make a difference. The 
Texas SPAN survey of 4th grade students in El Paso County suggested 
that CATCH was a contributing factor to a 7-point drop in student 
obesity rates measured from the year 2000 (25 percent) to the year 2005 
(18 percent). PdNHF funded CATCH at $4.2M over a 7-year period and 
estimated the costs of implementation at $10 per student per year. Our 
children deserve programs like CATCH.
---------------------------------------------------------------------------
    \17\ Luepker RV, et al. Outcomes of a field trial to improve 
children's dietary patterns and physical activity: The Child and 
Adolescent Trial for Cardiovascular Health (CATCH). J Am Med Assoc 
1996; 275: 768-776.
    \18\ Nader P, et al. Three-Year Maintenance of Improved Diet and 
Physical Activity: the CATCH Cohort. Arch Pediatr Adolesc Med. 1999; 
153(7): 695-704.
---------------------------------------------------------------------------
    Since then, over 2,100 Texas elementary schools and nearly 10,000 
schools nationwide have been trained in the use of CATCH. As 
Commissioner, I estimated that if CATCH could avert diabetes in only 1 
or 2 obese children per school, it will have more than paid for itself.
    Here in New Mexico, CATCH is a popular prevention program. The NM 
State Plan calls for increasing the number of schools offering the 
CATCH program (Activity 2.2.A-2).\19\ A collaboration between New 
Mexico Health, Education and Cooperative Extension agencies is 
implementing CATCH in grades K through 5. Funded largely by tobacco 
settlement funds, each CATCH school is encouraged to include all 
components of the intervention. In 2008, a total of 45 elementary 
schools and after-school programs were funded to provide the CATCH 
program.
---------------------------------------------------------------------------
    \19\ The New Mexico Plan to Promote Healthier Weight A 
Comprehensive Plan to Reduce Obesity, Overweight, and Related Chronic 
Diseases 2006-2015.
---------------------------------------------------------------------------
    Not only does CATCH improve diet, physical activity and obesity, 
but Texas researchers have documented significant improvements on 
Stanford Achievement test scores.\20\ Among a group of predominantly 
Hispanic, economically disadvantaged elementary school students, the 
CATCH classroom physical activity intervention produced significant 
increases in achievement in math problem-solving. Among children who 
were not adapting well to school, CATCH produces significant 
improvements in Stanford Math and Reading scores.
---------------------------------------------------------------------------
    \20\ Personal communication, Dr. Nancy Murray, University of Texas, 
School of Public Health.
---------------------------------------------------------------------------
    I know I have given a gloomy forecast, Mr. Chairman. We have a long 
way to go before we will make a significant impact on this enormous 
problem we are trying to tackle. However, there is hope of sunnier days 
ahead. We know that nutrition and physical activity are cross-cutting 
risk factors and that effective prevention of obesity also prevents 
diabetes, cardiovascular disease, and some cancers. Fully funding and 
implementing coordinated school health programs like CATCH and others 
with a proven track record can assure our communities and our Nation of 
healthier children and a much brighter future.

                               CONCLUSION

    Our country needs to focus on developing policies and making 
funding decisions that help Americans make healthier choices about 
nutrition and physical activity. We know that even small changes can 
make a big difference in people's health--and that individuals don't 
make decisions in a vacuum. If we want our children to lead healthy, 
productive lives, we need a strong partnership from the government, 
private and nonprofit sectors, as well as parents and teachers, to 
emphasize wellness and enhance nutrition and physical activity. The 
challenge is a big one, but we can make a difference together. Thank 
you again for the opportunity to testify.

    Senator Bingaman. Well, thank you very much for your 
excellent testimony.
    Dr. Thompson, why don't you go right ahead?

     STATEMENT OF JOSEPH THOMPSON, M.D., M.P.H., ASSOCIATE 
 PROFESSOR, THE COLLEGES OF MEDICINE AND PUBLIC HEALTH AT THE 
  UNIVERSITY OF ARKANSAS FOR MEDICAL SCIENCES, CHIEF MEDICAL 
       OFFICER FOR THE STATE OF ARKANSAS, LITTLE ROCK, AR

    Dr. Thompson. Sure, sure. Thank you, Senator Bingaman and 
Senator-elect Udall. I appreciate being here. Dr. Sanchez and I 
will, I think, make a good team here in front of you.
    I am a father of two, a pediatrician. I am the director of 
the Center for Health Improvement, which is the policy 
development center for our State. I am now serving my second 
governor as the cabinet-level advisor on health as the State 
surgeon general.
    I know that you are faced with fiscal crises that are acute 
and impending and immediate, but I think we are here today 
talking about a health crisis that may dwarf the current fiscal 
crisis in the future if we don't take action soon.
    I am going to submit my written record in full and also re-
submit a letter to the committee that I sent after our last 
discussion with the fiscal issue, so that there is a written 
record of the fiscal comments and touch on some of those.
    This economic crisis--if I could--in our State, we have 
actually documented. We know that in our Medicaid program, 
about 35 percent of our kids are either overweight or obese and 
that they are costing our Medicaid program 9 percent more. That 
the children who are obese cost 9 percent more than the 
children who are normal weight.
    We know that when we get into the teenage years that the 
difference is 29 percent more, and we have tracked that through 
the adult State employee population, the largest insured group 
of employees in our State. I would be willing to suggest across 
all States, except maybe Rhode Island.
    In that State employee population, 26 percent of their 
healthcare costs are associated with either obesity, physical 
inactivity, or tobacco use. As they age, our obese State 
employees, full-time workers, cost 100 percent more than our 
normal weight full-time workers. One hundred percent more, and 
we put them on the doorstep of Medicare.
    We cannot find that Medicare has in their future of 
Medicare actuarial projections a factor that takes into account 
the obesity risk burden that is in the growing population that 
is coming to the doorstep of Medicare for healthcare services 
in the future.
    This starts in childhood. We pay for it through our 
employed populations as they are working adults, and the 
Federal Government has a huge fiscal liability for the future 
if we do not turn this spigot off and address with the 
treatment, the prevention, and the research issues that you 
called for in your act of 2008. We cannot afford not to act.
    Let me spend a few minutes on focusing on our actions in 
Arkansas. We are now in our sixth year of actions that we took 
in 2003 under our legislative proposal, where we tried to 
tackle childhood obesity after it was announced by the Centers 
for Disease Control and others that we were in a nationwide 
epidemic.
    They had said approximately 30 percent of children were 
either obese or overweight in 2003. Our legislature initiated 
and our then-Governor Huckabee supported major changes in our 
schools and our environments. We changed the education that 
cafeteria workers had. We changed what was in the vending 
machines, restricting sugared soft drinks in vending machines.
    We restricted vending machines to only be available after 
lunch so that kids didn't get breakfast and lunch from a 
vending machine. They got it from the cafeteria. They used 
vending machines for snack products after lunch and after 
school.
    We established physical activity requirements in every 
grade, K through 12. I will need to come back to that when we 
look at where we are currently. Now we created, in advance of 
the Federal requirements, local parental advisory committees to 
try to get engagement of parents to change the school system 
and the environment.
    We required publicly disclosing so-called ``pouring 
contracts,'' basically advertising privileges that companies 
have inside of the school setting to advertise their products. 
Historically, not something that we thought was harmful, but 
that we now know may be influencing children's consumptions of 
soft drinks or foods of minimal nutritional value.
    Somewhat controversially in 2003, we started and followed 
the Academy of Pediatrics national physician organization's 
recommendations, as well as the Institute of Medicine's 
recommendations, to make sure that every parent knew their 
child's body mass index so that parents have warning, because 
we have slowly become heavier and heavier.
    If you look at a kindergarten class from 1970, it is a 
bunch of thin kids. If you look at a kindergarten class from 
2007, it is hard to find the thin child. We have gradually 
turned the thermostat up of what we accept. The BMI is a way to 
quantify that and make sure people know where their risk is.
    We started in 2003 reporting every child's body mass index 
across 380 school districts, 1,300 schools, almost half a 
million children each year in our relatively poor and 
southerly, sisterly State with you.
    Our BMI information pushed things forward. It provided an 
annual report. It provided parent information. It provided 
legislative stamina to stay the course. I am proud to say now 
that we are in our sixth year, that over the last 3 years, we 
have been able to claim with hard data that we have halted the 
progression of the childhood obesity epidemic.
    We cannot say for sure that we have reversed it, although 
what we will be coming out with later this year are communities 
within which we have reversed that epidemic and some other 
communities that we might need to make additional investments 
in.
    As I think you are well aware, those other communities 
frequently are poor communities, more isolated communities, 
minority communities, disenfranchised communities. So those 
communities that need more help, we need to provide more help 
to.
    Our BMI assessments from an external evaluation by our 
College of Public Health have been found to be helpful by 
parents. Sixty-one percent of school districts now have 
policies prohibiting vending machines from selling junk foods, 
up from just eighteen percent in 2004.
    Twenty-six percent of vending items in schools are healthy, 
up from eighteen percent. That is if they are allowed vending 
items, a fifty percent increase in the healthy category.
    Parents are changing their home environment, what they 
purchase for their children. They are reducing the television 
and video-game screen time because they have been made aware of 
the obesity risk as an issue.
    In 2007, 72 percent of students reported that they 
increased their physical activity, up 10 percent from just a 
year before. Some of these changes have raised awareness, 
changed the environment within which kids go to school every 
day, and wrapped support around parents to make those changes 
that they need to.
    We have another evaluation coming out this January that I 
look forward to providing you. I will also say that in our last 
legislative session, we repealed the physical activity 
requirement in every grade K through 12 because of the academic 
performance needs necessary to reach the No Child Left Behind 
standards.
    While we had achieved 30 minutes of physical activity 
requirements in every grade K through 12 across 4 or 5 years, 
not intentionally, but the pressure for academic performance 
over here in an isolated silo eroded our ability to support 
physical activity across all grades, K through 12.
    Now we are back to where we have it in kindergarten through 
fifth grade, half a semester in middle school, half a semester 
in high school. That is all the physical education requirements 
that we have across our 1,300 schools in the State.
    There is a role for everyone to play, and I think this is a 
call for all of us--families, communities, churches, schools, 
States, and our Federal leaders--to play.
    The Robert Wood Johnson Foundation, the Nation's largest 
healthcare foundation, has made a commitment to invest half a 
billion dollars--a dollar amount that has never been previously 
invested from a private corporation--to change something for 
which they don't make any money on, and many of the programs 
that they put in place are important.
    In schools, the Alliance for a Healthier Generation with 
the Clinton Foundation and the American Heart Association, a 
joint initiative, has put efforts in schools in all 50 States, 
almost 1,900 schools. You have 18 schools here in New Mexico 
that are signed up and trying to change the cafeteria 
environment, the physical education environment, the parental 
engagement along similar lines to those we took in Arkansas.
    We have State evaluation projects in States that have taken 
efforts. That report that I mentioned from Arkansas, and also 
Delaware, Mississippi, New York, Texas, West Virginia--are 
coming forth with new and innovative strategies that we look 
forward to sharing and incorporating in our State, as I am sure 
Texas will and others.
    The National Governors Association Healthy Kids, Healthy 
America Project has funded governors' offices in 15 States, 
including here in New Mexico, where you now have within the 
Office of the Health Secretary a coalition composed of more 
than 40 State agencies across 8 departments with 60 private 
organizations and public organizations working together to 
break down these silos, to wrap support around parents, and to 
make this be a real change.
    Safe Routes to School program, Food Trust, community-based 
programs. Yesterday, Healthy Kids, Healthy Communities 
announced funding opportunities for 60 new communities to get 
funding from the foundation to make changes. Half of those are 
targeted for the Southern States, where the risk burden is the 
greatest. From Georgia on the east coast all the way across to 
Arizona and California on the west coast, draw a line below 
that line, these Southern States need to come together to take 
advantage of this.
    We need coordination, and we need a national plan. I think 
your proposed prevention, treatment, and research is an 
important and critically needed first step, but there are other 
challenges. You are going to be faced with major pieces of 
legislation in an acute, compressed timeframe where action 
needs to be taken. There can be small steps that make a 
difference--your reauthorization of the State Children's Health 
Insurance Program, the K through 12 education program, the 
Child Nutrition and WIC program, the transportation 
reauthorization. You will have the opportunity on each of those 
to make a major change that wraps support around States, 
communities, and families.
    For example, you could include explicitly obesity as a 
treatable condition in the State Children's Health Insurance 
Program. You could provide funding to implement in force the 
federally required school wellness policies, which are required 
of schools now, but that don't have adequate funding flowing 
through.
    We could require nutrition standards for competitive foods 
offered within the school system. Right now, those are outside 
of the Department of Agriculture requirements.
    We could align the reimbursable school meal programs with 
the recently released dietary guidelines for Americans to make 
two different agencies in the Federal Government work together 
to be telling schools the same thing. We are telling them 
different things right now.
    The intensity and duration of quality physical activity in 
schools--just a performance indicator to say how physically fit 
kids are when they graduate would actually change the balance 
to not just look at academic performance, but also look at 
physical fitness as a component of a healthy lifelong 
educational strategy.
    The physical fitness index, ``Complete Streets,'' and 
through the transportation bill to make sure that new roads 
that we are going to build for part of the stimulus package and 
over the next 5 years due to transportation advancements also 
incorporate safe and convenient mechanisms for people to use 
pedestrian or cycles or nonpetroleum fuel-generated forms of 
transportation.
    Then, finally, you have existing programs within your 
agencies--the Centers for Disease Control, many of the outreach 
programs across Education, Agriculture--that if there was a 
requirement within their authorization bill to at least pay 
attention to the needs of childhood obesity, that is going to 
re-inforce the cross-agency collaboration that you have called 
for in your 2008 bill.
    Finally, in conclusion, let me just say we need the Federal 
Government and State governments to join together to support 
communities and families. I have never yet met a mom, as a 
pediatrician or as a father, who wanted a healthy, uneducated 
child or an educated, unhealthy child. They want both, and we 
need to make our programs work together to give that.
    I will tell you that I think the most serious threat to the 
future of our children and also I think to the future of our 
Nation is this obesity epidemic that is, quite candidly, very 
similar, from my perspective, to the financial crisis we are 
in.
    Let me just draw the parallel. Ten years ago, nobody really 
thought about the number of credit card free applications you 
were getting in the mail, but today, people are thinking about 
it differently. Today, people are not thinking about as much as 
we need them to not getting the super-sized fries or not 
selling the school environment out to advertisement or not 
having physical activity in the 8 hours of school that the kids 
are sitting down all day.
    We need to change that. We need to have it be just like we 
are focused on the fiscal crisis today to focus on this health 
crisis before it becomes the fiscal crisis of tomorrow.
    Thank you very much for being here.
    [The prepared statement of Dr. Thompson follows:]

         Prepared Statement of Joseph W. Thompson, M.D., M.P.H.

    Senator Bingaman, members of the subcommittee, thank you for this 
opportunity to testify about the No. 1 health threat facing our 
children today and generations to come--obesity.
    I am Dr. Joe Thompson, a father, a pediatrician, the Surgeon 
General of the State of Arkansas and the Director of the Robert Wood 
Johnson Foundation Center to Prevent Childhood Obesity.
    First, I would like to thank all of you for your dedication to this 
issue. During this time of true economic crisis that is affecting 
families all across the United States, it is more important than ever 
that we get on track to reversing this epidemic. As people resort to 
cheaper, less nutritious foods because of the rising cost of fresh 
produce, some researchers already are predicting higher obesity rates 
within 3 years.
    Obesity-related expenses already cost State Medicaid budgets $21 
billion annually. If we think the cost of obesity is high now, just 
wait until our current generation of obese and overweight youth reaches 
adulthood and begins to experience the ill health and disability of 
chronic disease--not in their 50s and 60s but in their 30s and 40s.
    Let me state emphatically: ``We cannot divert our attention. We 
must reverse this epidemic of obesity or it threatens to undermine 
America's future far more than the current economic crisis.''
    Through a series of hearings held in this subcommittee over the 
summer, you examined the environmental factors that have led us to 
where we are today: supermarket flight, food and recreation deserts, 
urban sprawl, unsafe places to play, squeezed physical education time, 
vending machines in schools and increased time in front of a screen--
television, video game or cell phone, just to name a few.
    We did not intentionally allow our families to be negatively 
affected by our decisions, but we must intentionally reverse these 
effects. We need your leadership now.
    This epidemic cuts across all categories of race, ethnicity, family 
income and geography, but some populations are at higher risk than 
others. Low-income individuals, African-Americans, Latinos and those 
living in the southern part of the United States are among those 
affected more than their peers.
    Arkansas is similar to many other southern States--at risk for and 
paying the price for poor health. Compared with the Nation as a whole, 
we have disproportionately high rates of disease and infant mortality, 
low life expectancy and low economic status. Like other southern 
States, Arkansas is also disproportionately burdened by obesity risks 
in both adults and children. Almost one out of every three adults in 
Arkansas is obese.
    Unlike other southern States, we are doing something about 
childhood obesity. In 2003 we passed Act 1220, which led to the first 
and most comprehensive legislatively mandated childhood obesity 
prevention program in the country. We had three goals:

    <bullet> change the environment within which children go to school 
and learn health habits every day;
    <bullet> engage the community to support parents and build a system 
that encourages health; and
    <bullet> enhance awareness of child and adolescent obesity to 
mobilize resources and establish support structures.

    Specifically the law included provisions aimed at:

    <bullet> improving access to healthier foods in schools, including 
changing access to and contents of vending machines;
    <bullet> establishing physical activity requirements;
    <bullet> creating local parent advisory committees for all schools;
    <bullet> publicly disclosing so-called pouring contracts; and
    <bullet> reporting each student's body mass index (BMI) to his or 
her parents in the form of a confidential health report.

    As the Director of the Arkansas Center for Health Improvement, I 
led the implementation of the BMI assessment program, and I am proud to 
say that we have halted the epidemic in Arkansas. It took the work of 
the schools, the community, parents, teachers and kids alike to commit 
to this system-wide change for the good of their own health and the 
future of our State and our country. We changed the environment through 
policies and programs that now support a healthier and more active 
lifestyle.
    When we began measuring our kids' BMIs during the 2003-2004 school 
year, a little less than 34 percent of children ages 2 to 19 nationally 
were either overweight or obese. Based on statewide evaluations of 
virtually all public school students in Arkansas, more than 38 percent 
of our children and teens were in the two highest weight categories. 
However, during the next 3 years (2005-2007) we found that we had 
stopped progression of the epidemic--the rate of overweight and obesity 
remained virtually unchanged at 38 percent per year.
    While the rate of childhood obesity in Arkansas is still too high, 
we are encouraged that our efforts have been successful and that the 
epidemic has been halted in our State. Now, we can turn our efforts to 
reversing the trend in our State and sharing lessons learned to inform 
national efforts.
    The most recent evaluation from the Fay W. Boozman College of 
Public Health at the University of Arkansas for Medical Sciences shows 
that Arkansas's law is working to create a healthier environment in 
schools across the State--and that some families are starting to make 
healthy changes at home. Some of the key findings of the report include 
the following:

    <bullet> The BMI assessments have been accepted and found helpful 
by parents--and recognition of specific health problems associated with 
obesity, such as diabetes, high blood pressure, asthma and high 
cholesterol, has increased over the first 3 years. Student teasing 
about weight has not increased since BMI screenings started in public 
schools--a finding that counters initial concerns proposed by opponents 
of the act who feared that the BMI mandate would lead to more children 
being the target of jokes about body fat.
    <bullet> Sixty-one percent of school districts in Arkansas have 
policies prohibiting vending machines from selling junk foods, up from 
just 18 percent in 2004.
    <bullet> Twenty-six percent of vending items at schools are in a 
healthy category, up from 18 percent 4 years ago.
    <bullet> Parents are making efforts to create healthier 
environments at home by limiting junk foods--and limiting the time 
their children spend in front of a television or video game screen and 
by encouraging more physical activity.
    <bullet> In 2007, 72 percent of students increased their physical 
activity overall, up 10 percent from the 2006 study. There is still 
work to be done, especially in schools. Only 41 percent of students 
reported participating in daily PE in 2007--a drop from 71 percent in 
2004.

    Every year since implementation we are learning more about how this 
law is working and we look forward to the next evaluation report from 
the College of Public Health which will be issued this January.
    Beyond the statistics, the positive impact that our policy changes 
are having on individual kids like ``Samantha'' has been the one of 
most encouraging success stories. Samantha was 10 years old when a 
routine screening at her school showed that she was at serious risk for 
obesity. Her mother, who thought Samantha was going through a harmless 
phase she'd outgrow, got the message. In addition to embracing changes 
made at school, Samantha's family also took steps to improve their 
health at home: eating better, reducing TV time and becoming more 
physically active. Samantha's BMI percentile dropped, and her weight 
classification changed from the highest category to a healthy weight. 
She's kept extra weight off and feels better than ever before.
    This is what has worked for Arkansas. In order to help other States 
model this program and the changes we made in our State, we need to 
identify and disseminate best practices. I want to ask the U.S. 
Congress for help in sustaining our State-based effort and expanding it 
to the Nation.
    Beyond what is happening in my home State, there is a real 
opportunity for everyone to play in reversing this epidemic.
    That is why the Robert Wood Johnson Foundation has committed $500 
million over 5 years to reverse childhood obesity rates by 2015. For 
millions of young people, the Foundation wants to avert, the life-
limiting consequences increasingly associated with obesity--type 2 
diabetes, heart disease, stroke, asthma, certain kinds of cancer and 
many other debilitating diseases. We are investing in three 
interlocking areas--research, action and advocacy--with a specific 
focus on children at greatest risk for obesity.
    In order to coordinate and maximize our efforts, next month we will 
launch the new Robert Wood Johnson Foundation Center to Prevent 
Childhood Obesity. The Center will be the only national institution 
focused solely on reversing the epidemic that threatens our country's 
children and adolescents.
    We will provide expertise and support to organizations, 
policymakers and communities. The Center will help shape and coordinate 
these groups' efforts and build a nationwide movement to solve this 
critical health issue. The major programs funded by RWJF on the ground 
and in communities across the Nation will form the core of this 
movement.
    I want to share some of these programs with you--and how in 
addition to what we are doing in Arkansas--we are starting to craft 
creative solutions that will help fight this epidemic.
    As you will see, we are concentrating our efforts broadly--in 
schools, at the State level and within vulnerable communities--by 
investing in systemic and lasting changes that will improve healthy 
eating and active living. Our goal isn't to drop in, spend some money 
and then leave. We want to create systems so the change carries on.
    The Alliance for a Healthier Generation's Healthy Schools Program 
is our biggest investment in school-based solutions to the epidemic. 
The Alliance is a joint initiative of the Clinton Foundation and the 
American Heart Association. The Healthy Schools Program works with 
schools nationwide to develop and implement policies and practices that 
promote healthy eating and increased physical activity for students and 
staff. The program places special emphasis on reaching schools that 
serve students at highest risk for obesity.
    After 2 years of operation, the Healthy Schools Program now 
provides on-site support to more than 1,900 schools and online 
assistance to more than 1,900 schools in all 50 States, including 18 
schools in New Mexico. The online assistance includes a Web site 
providing tools to help schools create a healthier environment and 
evaluate the nutritional value of foods and beverages. To date, the 
program has reached more than 1.66 million students, held three annual 
forums and recognized nearly 70 schools for creating healthier 
environments. We expect the program to expand to more than 8,000 
schools by 2010.
    We are also investing in statewide change through State evaluation 
projects and funding the National Governors Association's Healthy Kids 
Healthy America Project. RWJF funds evaluations of State-wide policies 
designed to prevent childhood obesity in six States: Arkansas, 
Delaware, Mississippi, New York, Texas and West Virginia. Some States 
have changed policies to provide healthier foods at schools, improve 
physical education and assess the body mass index of school children, 
while others are addressing the foods and services offered through 
their Women, Infants, and Children (WIC) programs.
    The evaluations examine whether or not the policies are being 
implemented as they should be, if they are effective in addressing 
childhood obesity, and what residents think of them. Each of these 
evaluations will have valuable lessons to share once their evaluations 
are completed.
    The Healthy Kids, Healthy America initiative, which encourages 
governors and State leaders across the country to support increased 
physical activity and healthy eating among children, is funding 
projects in 15 States. Such projects include: integrating healthy 
messages into the classroom through hands-on activities; increasing 
physical activity levels in daycare settings; developing school and 
community action plans; creating model voluntary guidelines for 
nutrition, physical activity and screen time for after-school 
providers; tracking students' physical fitness; and providing 
comprehensive wellness screenings for children in school.
    New Mexico is a Healthy Kids Healthy America State. Building off 
momentum already present in the State, Gov. Bill Richardson (D) has 
improved alignment and collaboration among the State's obesity 
prevention efforts by creating a senior-level, childhood obesity 
advisory position in the Office of the Health Secretary. A coalition--
composed of more than 40 State agencies in 8 departments and more than 
60 private and public organizations--agreed to deliver consistent youth 
obesity prevention messages across all their programs. The importance 
of this cross-cutting coordination cannot be stressed enough and needs 
to be a model for what we are doing at the Federal level as well.
    Other programs we fund reflect the importance of increasing 
opportunities for active living and healthy eating, as well as 
complement State government-led efforts that are already under way. Our 
work with the Safe Routes to School National Partnership and The Food 
Trust demonstrates this approach. Safe Routes to School is a national 
and federally funded program to create safe, convenient and fun 
opportunities for children to bicycle and walk to and from school. The 
national partnership supports organizations, government agencies and 
professional groups in their efforts to develop coalitions and action 
plans to make this happen. The partnership focuses on nine key States 
and the District of Columbia, chosen because they have large 
populations at a greater risk for childhood obesity.
    The Food Trust helps to expand the supply of food resources 
available to low-income communities by advocating policies that increase the 
availability of fresh food in communities, creating model programs, 
undertaking research studies on food disparities and disseminating 
findings to government officials and policymakers. Collectively, these 
efforts are addressing the systemic issues that prevent our food and 
farming system from adequately serving hundreds of thousands of 
individuals throughout the region every year.
    The Food Trust was a partner in creating the Pennsylvania Fresh 
Food Financing Initiative, the Nation's first statewide program to 
address the lack of access to healthy food in low-income neighborhoods. 
With RWJF funding, The Food Trust is working with partners in Illinois, 
Louisiana and New Jersey to explore State-level solutions to the 
problem of poor food access in these States.
    We are also right in the middle of launching three new community-
based programs, the largest of which is our Healthy Kids, Healthy 
Communities Program. Healthy Kids, Healthy Communities is a $44 million 
initiative that is the Foundation's largest investment to date in 
community-based solutions to childhood obesity. Just yesterday we 
announced nine leading sites that will receive grants of up to $400,000 
over 4 years to help make policy and environmental changes to increase 
opportunities for physical activity and healthy eating among children 
and their families
    The leading sites are urban and rural, large and small. They 
include: Chicago; Columbia, MO; Louisville, KY.; Seattle; Somerville, 
MA; Washington; and Baldwin Park, Central Valley and Oakland in 
California. Through impressive partnerships of neighborhood 
associations and public agencies, all are pursuing an array of 
strategies to reshape their communities and promote active living and 
healthy eating--through farmers markets in public schools and community 
gardens, new bicycle lanes and wider sidewalks, even a pedestrian-only 
boulevard on weekends.
    The program will grow to approximately 70 communities when another 
round of funding is awarded late next year. The leading sites will then 
act as mentors for these additional cities and counties. Yesterday, 
RWJF released a call for proposals for the second round of Healthy 
Kids, Healthy Communities funding. Preference will be given to 
applicants from communities in 15 States where rates of childhood 
obesity are particularly high--Alabama, Arizona, Arkansas, Florida, 
Georgia, Kentucky, Louisiana, Mississippi, New Mexico, North Carolina, 
Oklahoma, South Carolina, Tennessee, Texas and West Virginia. About 
five dozen grants of up to $360,000 will be awarded to qualified 
community partnerships. I ask that all of you present today share this 
news with your community organizations here in New Mexico, since you 
are one of the target States.
    In addition to the Healthy Kids, Healthy Communities program, we 
are going to be launching another national program called Communities 
Creating Healthy Environments that aims to prevent childhood obesity by 
increasing access to healthy foods and safe places to play in 
communities of color. Grants totaling $2.5 million will be awarded to 
20 diverse, community-based organizations and federally chartered 
tribal nations to develop and implement effective, culturally competent 
policy initiatives to address childhood obesity at the local level.
    The Foundation soon will be funding 22 faith-based coalitions 
across the country--many of them centered in Latino communities--to 
push forward policy and environmental changes that can make the biggest 
difference such as: building community gardens; increasing access to 
healthy and affordable foods and safe places to play in low-income 
communities and communities of color; and fostering urban agriculture 
and youth engagement.
    We are enthusiastic about all the programs under way, but we 
understand that we can't solve this crisis alone.
    We know it is crucial to work with Federal, State and local 
leaders--those from public health and public schools, industry and 
business executives, and physicians, hospitals and nonprofit 
organizations in the community.
    In August, the Foundation was pleased to partner with Trust for 
America's Health in releasing the 2008 F as in Fat Report. The report 
issued a clarion call for a National strategy to fight obesity.
    ``This needs to be a comprehensive, realistic plan,'' according to 
the report. One that ``involves every agency of the Federal Government, 
State and local governments, businesses, communities, schools, 
families, and individuals.''
    And, the report continued, the strategy ``must outline clear roles 
and responsibilities and demand accountability. Our leaders should 
challenge the entire Nation to take responsibility and do their part to 
help improve our Nation's health.''
    I am pleased to endorse, your plan, Senator Bingaman, to create an 
interagency coordinating task force or council, across all agencies 
within the Federal Government to create strategies and synergies to 
prevent childhood obesity. With a new Administration and a new Congress 
and a renewed focus on prevention, I am hopeful we will be able to 
really take a wholesale look at how the Federal Government is organized 
and identify opportunities to push a comprehensive active living and 
healthy eating agenda.
    Additionally, as Congress is faced with major pieces of legislation 
to reauthorize SCHIP, No Child Left Behind, Child Nutrition and WIC and 
SAFETEA-LU, I would be remiss not to make recommendations. At a 
minimum, I urge Congress to:

    <bullet> Include obesity as a treatable condition in the State 
Children's Health Insurance Program;
    <bullet> Provide funding to implement and enforce federally 
required school wellness policies;
    <bullet> Require nutrition standards for competitive foods;
    <bullet> Align the federally reimbursable school meal programs with 
the Dietary Guidelines for Americans;
    <bullet> Increase the intensity, duration and quality of physical 
activity in schools;
    <bullet> Incorporate a physical fitness index or physical education 
quality score in school performance ratings;
    <bullet> Implement complete streets that are designed and operated 
to enable the safe and convenient travel of all users of the roadway, 
including pedestrians, bicyclists, users of public transit, motorists, 
children, the elderly and people with disabilities;
    <bullet> Support Safe Routes to School; and,
    <bullet> Adequately fund Centers for Disease Control and obesity 
prevention grants to States.

    As I said at the beginning, we must intentionally reverse this 
epidemic. All of us have a role to play. I believe the reforms we have 
put in place in Arkansas are working and are replicable. I believe that 
the programs funded by the Robert Wood Johnson Foundation will help the 
Nation chip away at this problem. None of this is enough. We need the 
Federal Government and State governments to lead by promoting and 
incentivizing model policies--some of which I touched on today.
    As research points us to new and innovative solutions, we must 
remain flexible to fund and implement them as well. We must change the 
toxic environment that unwittingly reinforces poor nutrition and 
sedentary lifestyles and exacerbates health conditions that threaten 
the future of our children and our Nation.
    As you face the acute crises facing the Nation today, please do not 
fail to look for strategies to support the long-term changes needed to 
reverse this epidemic. As you reauthorize important programs in the 
coming year, on behalf of the Nation's families, please incorporate 
steps to intentionally align Federal incentives with supportive 
environments.
    We did not develop this problem overnight. We must act now to start 
the process in reversing the epidemic of obesity that threatens to rob 
our children, our families, and our Nation of its future.
    We simply cannot fail to take action.

    Senator Bingaman. Thank you very much for your excellent 
testimony.
    Let me start with a few questions, and then Congressman 
Udall will have some, I am sure.
    Let me ask, this whole issue of measuring body mass or 
physical fitness, doing a physical fitness index, I guess 
Arkansas has done more than any other State to sort of make 
that universal? At least that is my impression.
    Has there been a lot of pushback? Have you had a lot of 
folks come back and say this is none of the State's business, 
none of the school's business? You shouldn't be getting into 
this? What has been the favorable response and the unfavorable 
balk?
    Dr. Thompson. Sure. Let me just start. We have had a lot of 
news stories, I can promise you that. We have had a lot of 
press coverage, and let me get below the press coverage to give 
you a kind of boots-on-the ground report.
    We are now in our sixth year, and when we started this, we 
really didn't mean to step out as far in advance probably as we 
did. We were just following what the Academy of Pediatricians 
and the Institute of Medicine said, that every parent should 
know their child's BMI.
    When we turned to parents to say do you know theirs, almost 
none did. Just like hearing screening or vision screening or 
developmental screening that the schools did, we thought how do 
we get to all kids quickly, and we put it into the process of 
the school assessment program.
    We did take cautions to make sure that kids were measured 
in a high-quality way. They were measured in a confidential 
way. The child did not know their weight or their height and 
that the report that we generated was sent home confidentially 
to the parents with things that explained what the BMI was, 
what they could do about it if it indicated a potential 
problem, where they could turn to for help.
    Then I think, over time, we really, through the external 
evaluation, have dramatically increased the awareness of 
parents who have obese children--that their child may have a 
health risk--from less than a third to more than two thirds now 
of parents of obese children are taking steps and think that 
their child has a health risk that they need to address.
    Having said that, the first year, we sent that health 
report home to 90,000 parents who had an obese or an overweight 
child. My name and phone number was at the bottom of it. So, I 
think I can fairly confidently tell you what the pushback was.
    We got 300 phone calls. Half of those were parents who 
wanted more information, and half of those were parents who 
felt like we had infringed upon their rights as parents or 
penetrated the safe zone of their child in school. They did not 
appreciate--some very vociferously--being told that their child 
had a weight problem.
    Out of 90,000 that we sent, I have got 150 that felt 
strongly enough to just pick up the phone and call or to send 
in a letter. I think any business would take that as a 
complaint rate over time, particularly given the risk that we 
were addressing.
    Over time, we have now moved to where we have a written 
method that if a parent wants to say, ``I will take 
responsibility for my child's health,'' they can opt out of the 
school-based screening. We want the parents to take 
responsibility for that screening process and that health risk. 
We don't want to go blind just because there is some tacit 
resistance to the issue of: Is obesity a problem we should be 
worried about?
    We are now in our sixth year. Now we measure every other 
year. Kindergarten, 2nd, 4th, 6th, 8th, 10th grades. So a 
parent gets a health report every 2 years.
    We coordinate that with their vision screening and their 
hearing screening so that they get all of that as a health 
report from the school. That enables the school nurse personnel 
and others to focus more on the kids that need help in the off-
years when we are not doing that annual assessment.
    Senator Bingaman. Your conclusion is that this is an 
essential part of dealing with the problem, as I gather?
    Dr. Thompson. It hits multiple leverage points in a way 
that nothing else does. It gives the parents a number that they 
can track. It gives the school personnel a profile of the 
school that they both have internal mechanisms to understand 
what their risk is, but they have some external accountability 
for what they are doing about it.
    It gives our legislative bodies--we publish by legislative 
district what the obesity rates are. That lets local 
constituents engage their legislators more substantively and 
actually holds the legislature accountable for the educational 
and health goals.
    At our State level, just like at the Federal level, we are 
running the Medicaid program over here, and we are running the 
education program over here. How do we get those two programs 
to link together? This data has been one source that has been 
critical in helping us link those two programs together.
    Senator Bingaman. Dr. Sanchez, let me ask you a question 
and then defer to Congressman Udall here.
    This CATCH program that you talked about is privately 
funded, as I understand it, through this foundation?
    Dr. Sanchez. The CATCH program is funded in different ways 
in different parts of Texas. While the State of Texas has 
passed legislation that has requirements for physical activity, 
has passed rules about nutrition policy, has passed legislation 
about a requirement for coordinated school health programs, 
like sometimes happens in our poorer States, it was done in a 
way that didn't have the funding attached to that policy 
change.
    Communities have been finding different ways. When there 
are benefactor foundations--El Paso, as I mentioned, Paso del 
Norte Health Foundation helped fund. In Austin, TX, Travis 
County, the Michael and Susan Dell Foundation have helped fund 
CATCH implementation in Travis County. In Harris County, which 
includes Houston, the Houston Endowment has been a large 
funder.
    Other communities have used other sources of funds, but 
there was no--it has been privately funded perhaps to a greater 
degree than one would like.
    Senator Bingaman. What percent of the elementary schools in 
Texas are currently involved with this CATCH program?
    Dr. Sanchez. It is 2,100 schools out of about 4,000, so 
about 50 percent. The degree to which they have incorporated 
CATCH is variable, though. Because that funding of $10 per 
student per year sometimes is not consistent and schools 
sometimes do parts of, not all of the CATCH program.
    Senator Bingaman. You referred to the fact that in New 
Mexico, we are also using this CATCH program to some extent. Is 
that right?
    Dr. Sanchez. Correct. The State health plan, called the New 
Mexico Plan To Promote Healthier Weight, calls for increasing 
the number of schools, and there are now about 45 schools. 
There are other programs that have actually been incorporated 
in New Mexico. One is called OrganWise, and one is called 
Healthier Opportunities--Healthier Options for Public School 
Children.
    Those are programs that have some evidence base, not nearly 
as robust as the evidence base for CATCH. There are a handful 
of schools in New Mexico that are using that coordinated school 
health program.
    Senator Bingaman. Tom, you go ahead.
    Mr. Udall. Thank you, Senator Bingaman.
    Dr. Sanchez, first of all, do you have any comment on this 
idea that Dr. Thompson has put on the table about the BMI and 
how that would relate in terms of the things that you have 
discussed and the parental involvement that he is talking about 
that seems so important to this?
    Dr. Sanchez. Sure, absolutely. Parental involvement, very, 
very important. CATCH includes a parental involvement 
component.
    Dr. Thompson knows that when the State of Texas first 
looked at the notion of doing BMI, I was a bit reluctant. I was 
worried about how we would address what we were going to learn.
    I have changed my mind on that. I absolutely believe that 
the only way for us to, in an informed way, make policy 
decisions at a policy level or make personal decisions or 
family decisions at that level is to have information.
    A BMI, particularly as it has been constructed now in 
Arkansas, FITNESSGRAM, which actually includes BMI within it--
that is what we are doing in Texas--is a way to provide 
information.
    I think the other thing, though, that I know Dr. Thompson 
was alluding to and has addressed is that we can measure 
progress by doing these kinds of annual assessments. Whether it 
is at the family level, your child has gone from here to here. 
Whether it is at the school district level, the school 
population has gone from here to here. Or at the State level, 
then one can determine whether those particular interventions 
that might have been different in different school districts 
worked or didn't work.
    Then inform the next set of decisions about what programs 
should we be promoting and what programs should we put on the 
shelf. Monitoring BMI is one element that is very, very 
important, I believe, or some surrogate of BMI.
    And then evaluating programs so that we have a sense of 
progress. We have the sense of what worked, and then we can 
continue building the evidence base and making sense about what 
we are doing.
    Mr. Udall. Thank you.
    Now, Dr. Thompson, the things that you have recommended 
were part of this Act 1220, and what I am wondering is you have 
mentioned some very laudable successes there. Is there anything 
you might structure differently in the act? Is there anything 
that was particularly important that was included?
    Then in pulling the coalitions together to pass this piece 
of legislation, is there anything that you can share with us in 
terms of encouraging us to maybe do differently or to do in 
terms of moving forward with comprehensive legislation in this 
area?
    Dr. Thompson. Sure. Let me offer, and I think there are two 
or three things if we can unbundle them. The Act 1220 really 
did target the school environment and the place, the food, the 
activity levels where kids spent most of their day each day. We 
were in parallel doing everything we could with the adult 
environment, too, with the State employees plan. I mentioned 
the assessments that we have done.
    We actually added obesity treatment preventions to their 
health benefit plan, and we tiered their health insurance 
premiums. So that if people smoked or were physically inactive 
or were overweight, they ended up paying slightly more in their 
health insurance premiums.
    Remember, all of our schoolteachers were in that same plan. 
It really was--we did everything we could think of to make 
these changes during the last 5 years.
    With respect to Act 1220 and the school-based initiative, I 
do want to caution, I think there is a right way and a wrong 
way to do the BMI assessment.
    The BMI assessment needs to be done in a confidential, 
protected way, and that information treated just like you would 
grades or anything else provided to the parents as a reflection 
of the health risk, just like we provide to parents their 
educational grades that reflect their academic risk or 
performance.
    I have been on several news shows where it has been the way 
we did it versus the way somebody else did it, where they just 
weigh the kids and they give the kids the BMI. I mean keep it 
confidential. Do it right. Have it be a high-quality 
assessment, and I think it can be safely done.
    In fact, we have actually not seen any of the adverse risks 
that people had concerns about, myself included--eating 
disorders and other things. We have not seen any of those 
because we followed a safe path.
    With respect to passing the act itself, and I think today 
would be different than it would have been 5 years ago or in 
2003, 2002. We passed it then, it was a 4-page act, double-
spaced with no funding. It didn't get a whole lot of attention. 
It kind of went through, and then we had it and we made 
something out of it.
    I think today that awareness of the obesity risks, the 
willingness, candidly, of communities, of governors, of our 
elected leaders, industry to come to the table is much greater. 
I think what I would encourage is really to think about how do 
you get the different programs, the different agencies to work 
together?
    Have something with teeth in every agency's budget that 
forces them to work together on childhood obesity as opposed to 
staying isolated. Because that is how you are actually going to 
get the most work done.
    I think in this obesity act that we did, we have seen--we 
have seen our health department led by Dr. Halverson, our 
education department by Commissioner James, our human services 
department, they are starting to work together more effectively 
and efficiently.
    We now have coordinated school health programs that are 
trying to reach the community resources that Dr. Sanchez has 
reflected are present in Texas with our Medicaid resources, 
with our school resources. If we can align the incentives, 
there are some very powerful local leaders that will take 
advantage of that.
    If we set the programs up to not have those incentives, the 
local leaders get frustrated and can't make things happen. It 
is our kids who end up suffering.
    Mr. Udall. Thank you. Thank you both very much for your 
excellent testimony.
    Senator Bingaman. Yes, I appreciate it as well. We could go 
on with questions here for quite a while, but I think your 
written testimony and what you have also testified to today 
gives us a lot of good suggestions for things we could be doing 
in Washington.
    I hope we can take those suggestions and make some progress 
here in the new Congress. Thank you all very much.
    Dr. Thompson. I appreciate the opportunity to be here, and 
I know Dr. Sanchez and I would be glad to help any way we can 
because this is a major issue facing our Nation.
    Dr. Sanchez. I also thank you. I think that childhood 
obesity is--creates the issue around which we can think about 
health system reform in a different way than we have. If all we 
do is focus on the medical care side of things, we are going to 
lose the opportunity, as Dr. Thompson talked about, to try to 
slow the spigot down.
    If we don't slow the spigot down, all of the medical care 
system reform in the world is not going to be enough to address 
what is coming our way.
    Senator Bingaman. You commented that you didn't think 
Medicare in their current projections has taken into account 
the bow wave of problems that they are going to be faced with 
when folks get to the age for Medicare and find that a lot of 
them are overweight.
    You have looked into that, and you don't think it is part 
of their projections. Is that right?
    Dr. Thompson. We cannot find either the data source they 
would use or the calculations that they have employed to 
consider that--I mean, in my State employee population, 8 
percent of my State employees of all 110,000 State employees 
have type 2 diabetes.
    Thirty percent are obese. We have 300 who have a BMI, if 
the level for obesity is 30, I have got 300 State employees 
that have a BMI of 50. Those we will deposit on Medicare's 
doorstep pretty soon.
    I think this is an issue, critical issue, particularly on 
the House side on the pay-go rules and on the financing side, 
to get the mechanism for assessing future cost to consider what 
the current risk burden is so that it provides some flexibility 
to make an investment upstream, not just an investment, as Dr. 
Sanchez says, on how we are going to treat the diabetic who 
needs renal dialysis or heart surgery or foot amputation.
    Those are coming. We have got to figure out how we justify 
the investment upstream and what that investment is to keep 
those from overwhelming us in the future.
    Dr. Sanchez. We are both willing to help. I would like to 
provide both of your staffs--send additional documents from 
Texas--the strategic plan that I alluded to, the Texas Obesity 
Policy Portfolio (go to http://www.sph.uth.tmc.edu/
uploadedFiles/Centers/Dell/obesityportfolio.pdf), and some 
information about CATCH (go to www.sph.uth.tmc.edu/catch), the 
Healthier Options for Children, and OrganWise. I will get those 
to your respective staffs, if that is OK?
    Senator Bingaman. That would be great. We would appreciate 
it.
    Thank you very much.
    We have got two other witnesses here, and we would welcome 
them, invite them to come to the table.
    Patricia Morris is a Ph.D. She is a senior advisor with the 
Office of the Secretary in the Department of Health here in New 
Mexico. She serves as the director for New Mexico's Interagency 
for the Prevention of Obesity. She is the coordinator for more 
than 40 programs in New Mexico's public obesity prevention 
efforts.
    And Lynn Walters has initiated a program here in Santa Fe 
called Cooking With Kids. She initiated this in 1995, serves 
over 4,000 kindergarten through sixth grade students in the 
Santa Fe area. The program was awarded by the Department of 
Health and Human Services, with a 2007 National Innovation in 
Prevention Award.
    Thank you both for being here very much.
    Dr. Morris, why don't you go right ahead?

  STATEMENT OF PATRICIA MCGRATH MORRIS, PH.D., DIRECTOR, NEW 
 MEXICO INTERAGENCY FOR THE PREVENTION OF OBESITY WITH THE NEW 
           MEXICO DEPARTMENT OF HEALTH, SANTA FE, NM

    Ms. Morris. Thank you very much, Senator Bingaman. I 
appreciate the opportunity.
    It is nice to see you, Senator-elect Udall.
    I think it is particularly appropriate that the hearing is 
here in New Mexico. The State has recognized the growing 
incidence of childhood obesity epidemic, and we have initiated 
what we think are some very promising practices that might not 
only be models for the State of New Mexico, but for other 
States as well.
    My written testimony discusses in detail the growing health 
epidemic of childhood obesity in New Mexico. In the interest of 
time, and given that both Dr. Sanchez and Dr. Thompson really 
talked about this, let me pass and talk specifically about what 
the State of New Mexico is doing.
    I would, however, like to just make sure that we note in 
New Mexico, Native Americans and Hispanics are at tremendous 
risk for obesity and childhood obesity. I am not sure I heard 
that statistic in some of the discussion. I just want to make 
sure.
    The other one that I think is always very interesting is 
those who are food insecure. We somehow can't quite wrap our 
minds around, ``If I am hungry, how I can also be obese?'' I 
think because of the economic disadvantages of people who are 
food insecure, they are often having to purchase the high-
calorie, sort of low-dense foods. The cheap foods tend to be 
the unhealthier foods.
    With that, let me just tell you a little bit about what the 
State of New Mexico is doing. Recognizing the growing childhood 
epidemic, Governor Richardson charged the Health and Human 
Services cabinet secretaries to establish the New Mexico 
Interagency Council for the Prevention of Obesity.
    It was started in 2006. Under the leadership of the 
Department of Health, it was charged to develop consistent and 
collaborative efforts and messages across more than 40 State 
programs in 9 different departments. It also was charged to 
increase public/private partnerships, to build community-wide 
obesity prevention programs, and develop policies for obesity 
prevention.
    Currently, we have 9 State departments, and as I said, they 
represent over 40 public programs. They include Aging and Long-
Term Services; Children, Youth, and Families; the Department of 
Agriculture; Health; Transportation; Human Services Department; 
Public Education Department; Energy and Natural Resources; and, 
most recently, the Indian Affairs Department.
    We also have nonvoting affiliates. These organizations play 
very important roles in the development and the implementation 
of programs and policies. They include the American Heart 
Association, Envision New Mexico, the New Mexico Food and 
Agriculture Policy, the New Mexico Healthier Weight Council, 
and the New Mexico State Cooperative Extension Services.
    When I look back over the last year and I say, ``Well, what 
have we accomplished? '' I think that there are several sort of 
key pieces that we have accomplished.
    One is we have begun to build some of those consistent 
messages across programs around obesity prevention, such as 
healthy eating, increased physical activities. We are also 
beginning the process of really identifying the State and 
Federal regulatory and administrative barriers.
    For example, in the State of New Mexico, the U.S. 
Department of Agriculture has over 12 different food assistance 
and nutrition programs. They are administered in five different 
departments here. As you can imagine, it creates a lot of 
administrative barriers, and it is easy for people to go into 
their silos, as we speak.
    In addition, we try to fill gaps where we see that maybe 
there are issues or problems or programs that are needed in the 
States. One good example of where the interagency really worked 
in close corroboration with a specific department was in the 
efforts to develop a Team Nutrition Grant that was awarded to 
the public education department to really create healthier 
meals in schools.
    The Team Nutrition Grant I think also really is a good sort 
of representation or a good example of how interagency members 
can really share resources and reduce on duplication. Public 
education leads the Team Nutrition effort. However, there was a 
piece in that proposal which asked for the creation of a 
child's healthy eating Web page. The Department of Health had 
already begun to develop one.
    It became really clear that we didn't need two different 
Web pages in two different departments doing basically the same 
thing. And so, the Department of Health was given that 
leadership role to develop that.
    Another major accomplishment is really our community-wide 
program that we have started, called Healthy Kids Las Cruces. 
We received last fall, just a year ago, $100,000 from the 
National Governors Association as sort of start-up money to 
create a community-wide experimental pilot program.
    We used the New Mexico Plan to Promote Healthier Weight to 
develop, sort of, what did we want to do in the community? What 
were the target groups that we wanted to look at? What we did 
was we brought together stakeholders in Las Cruces as well as 
the State to develop a plan.
    The plan aims to really create and sustain community 
efforts that motivate children, youth, and families to eat 
healthier, to increase physical activity, and to achieve 
healthier weight. It is a strong collaboration with the city of 
Las Cruces, the Las Cruces public schools, Dona Ana County 
Cooperative Extension, interagency members, and nearly 50 local 
leaders.
    It focuses on really creating healthy environments in the 
community, and we focused on five different settings based, 
again, on this New Mexico Plan to Promote Healthier Weight. The 
five settings are schools; the food system, which includes 
restaurants; food retailers; the healthcare system; the built 
environment; and then community and families.
    I detail in my written testimony the sort of specific 
accomplishments that have really happened over the last year in 
each of those settings. Let me just highlight a few of them 
that I think represent what the Healthy Children--Healthy Kids 
Las Cruces is all about.
    Healthy Kids Las Cruces has partnered with the city of Las 
Cruces and the mayor's office to develop and promote the 
mayor's Fitness and Nutrition 5-2-1-0 Challenge. This challenge 
was just released within the last month.
    Basically, the mayor's office is using his office as a 
bully pulpit in many ways to challenge elementary school-age 
kids to eat at least five fruits and vegetables a day, to watch 
no more than 2 hours of TV or other screen time, to increase 
physical activity to at least 1 hour a day, and no sodas.
    Now many times, you can see it to cut back on your sodas, 
but the mayor felt it was really important because we are 
beginning to see cirrhosis of the liver in very young people. A 
lot of people say it is due to the consumption of highly 
sweetened sodas. It is the 5-2-1-0 challenge.
    We have increased the number of schools in Las Cruces that 
are implementing the Safe Routes to School. Three of the 
seventeen elementary schools in Las Cruces receive State 
Department of Transportation funds.
    Again, this was really a function of the interagency. 
Because we brought the interagency State members with the local 
members together to develop the plan, the State understood that 
Safe Routes to School was important, and so they made sure that 
Las Cruces knew about the Safe Routes to School grants so that 
people could prepare in advance and really write for those 
applications.
    We have also developed more than a dozen walking and 
bicycling paths. We have increased the number of schools 
holding fresh fruit and vegetable tastings, providing PE to 
students for 30 minutes 3 times a week, and having recess 
before lunch.
    Recess before lunch is a no-cost and very simple idea, and 
what we have found when we have done plate waste studies on it 
is kids who actually go and have their recess before lunch, 
they come back. They will drink more of the milk, and they will 
throw away less of the food because they are hungry. They will 
sit down and settle in.
    We also have established a flagship school at Conlee 
Elementary. What we wanted to do is make sure that we were 
putting as many of our resources as we could into one school. 
We consider Conlee Elementary really a microcosm of the larger 
Las Cruces community, and so we have got more than a dozen 
programs going into the Conlee school, both during school as 
well as out of time.
    We also have tried to include the neighborhood in that, and 
we are trying to deal with the local grocers. We are trying to 
deal with disclosure in chain restaurants in those 
neighborhoods to see if we can create a whole sort of 
neighborhood community intervention project.
    One of the important parts of it, I think, is really 
bringing together multiple community organizations all around 
healthy eating and active lifestyles. Just last month, Healthy 
Kids Las Cruces held a Fall Fitness and Fun Family Fiesta at 
Conlee. It was an extraordinary event, where the city of Las 
Cruces really led in the leadership of organizing that.
    The Las Cruces mayor, Ken Miyagishima, opened the event, 
announcing his Fitness and Nutrition 5-2-1-0 Award. More than 
425 children and their family participated in the different 
events on this Saturday afternoon, which is quite an 
extraordinary number of people.
    We had over two dozen community organizations participating 
and sort of leading different physical activity and healthy 
eating events. For example, the Las Cruces Police Department 
and the Las Cruces Fire Department provided activities, which 
included a bike rodeo, a canine demonstration, and they also 
did blood pressure checks.
    We had more than 200 people receive flu immunizations. The 
new edible school garden was dedicated. Two Conlee 
schoolchildren won free bikes.
    Our funding is over. We have no money left in Las Cruces, 
but we have built sustainability. We have got the commitment 
from the Department of Health, from the Interagency Council, 
from the city of Las Cruces, the public health, and the 50 
local stakeholders that we are going to continue this.
    We came together in October, and we developed our second-
year action plan. I think it says a lot about what communities 
can do in terms of sharing resources and building that synergy 
that I think is so important.
    What are our next steps in terms of the interagency? I 
think we would really like to replicate our Healthy Kids Las 
Cruces in other communities. It is not that we are trying to 
replicate a blueprint or the exact programming, but rather the 
process and a framework.
    The New Mexico Healthier Weight Council in many ways gives 
us a framework and a direction for where we want communities to 
be. We have a good process that we think brings together the 
necessary sort of leadership at the State and the local level 
to develop the local plan. Ultimately, the plan has to be 
locally determined.
    It is the local communities who know where their strengths 
are. They know where their gaps are. It is for the State to 
sort of come in and say, ``How can we help build what you are 
doing, support what you are doing,'' as well as bringing in 
innovative ideas.
    In many ways, we will continue to coordinate and strengthen 
our collaborative State and local efforts, and I really do 
think it is very important that we build some kind of a State 
obesity prevention monitoring system. Whether it is the use of 
the FITNESSGRAM, the BMI, it is really necessary. In New 
Mexico, we have no way to measure or track how kids are doing 
in elementary school.
    How can we create programs, how can we identify where the 
needs are if we don't know what the status is? I think it is 
really critical that we do it. I do agree with Dr. Thompson 
that it needs to be done in a way where we have privacy and 
confidentiality.
    With Government and the interagency and what we are doing 
in the State, we are really only part of the solution. It is 
great for us to build consistent messages, to build 
collaboration across State partners, and build private 
partners. We still have to counter, and this certainly isn't 
enough, to counter the more than $20 billion spent annually by 
industry in food marketing to kids and billions more to the 
adults.
    Sharing resources and eliminating duplication, they are 
important. Again, it is not the time to reduce or eliminate 
spending on obesity prevention as we all face very tight 
budgets. I think Dr. Thompson made very compelling arguments 
for why we shouldn't.
    A roadmap to healthier futures remains, I believe, largely 
unchartered. We know the problem, but I think we still lack a 
clear, comprehensive solution. Part of the solution may lie in 
taking what I call a more social entrepreneurial approach.
    Governments tend to look at problems programmatically. Even 
when we build collaborative efforts, we tend to frame solutions 
from traditional nutrition and health perspectives. But, 
obesity is only one part of a quality of life issue in a modern 
industrial society. If we step back and look at the larger 
picture, we may find ways to connect fighting the rising tide 
of obesity with other efforts aimed at improving the quality of 
life.
    For instance, the new Federal Government's efforts to 
increase the number of bicycle paths and pedestrian walkways. 
Well, a social entrepreneur might further suggest adopting the 
model of some European systems, which are providing free use of 
bicycles.
    Combining these two ideas would be good for the 
environment, and if more people have easy access to bicycle to 
work or to school, they may become fitter--or they will become 
fitter and reduce the healthcare costs.
    I think it is an untapped resource that we are only 
beginning to think about. One of the things that I keep 
thinking about is how do we convert all of the mechanical 
energy that we use in our workout gyms and convert that so it 
becomes electrical energy to actually provide energy for 
buildings.
    In conclusion, let me say that the road to reversing 
childhood obesity trends is long. We shouldn't expect changes 
overnight. It took decades to reach this obesity epidemic. This 
insidious problem grows slowly, just like our personal weight 
gain, and it will take years to change the culture of our 
communities.
    I think it is incredibly important that we all work toward 
building that as a social norm, a norm in which our children 
have an equal chance of making healthy choices as making 
unhealthy choices.
    Thank you very much.
    [The prepared statement of Ms. Morris follows:]

          Prepared Statement of Patricia McGrath Morris, Ph.D.

    Thank you Senator Bingaman for the opportunity to testify at this 
hearing ``Confronting Childhood Obesity: Creating a Roadmap to 
Healthier Futures.''
    It is particularly appropriate that this hearing is taking place 
here in Santa Fe, New Mexico. The State has recognized the growing 
incidence of childhood obesity among its citizens and has initiated 
some exciting and promising measures to stem the increase. The 
innovative approach the State is using may not only help New Mexico's 
children but may well be a model for others to follow.
    As you and the committee well know, childhood and youth obesity is 
a growing public health epidemic in our Nation and in New Mexico. 
Nearly one-quarter of New Mexico's high school students (24.4 percent) 
and its 2-5-year-olds (26.3 percent) who participate in the WIC program 
are overweight or obese.\1\ Far more American Indian and Hispanic high 
school students are overweight or obese compared to White non-Hispanic 
students. In 2007, 32.4 percent of American Indians and 26.0 percent of 
Hispanic high school students were overweight or obese compared to 18.6 
percent of White non-Hispanic students.\2\
---------------------------------------------------------------------------
    \1\ Currently there is no statewide system in place in New Mexico 
to collect weight-related data on children from Kindergarten through 
eighth grade.
    \2\ New Mexico Department of Health and New Mexico Public Education 
Department (2007). New Mexico Youth Risk and Resiliency Survey, Santa 
Fe, NM.
---------------------------------------------------------------------------
    Childhood obesity rates continue to grow and occur at younger ages. 
Obesity rates for New Mexico's children ages 2-5 years participating in 
the WIC program increased by nearly 30 percent in just 7 years going 
from 9.0 percent in 2000 to 12.7 percent in 2007 (WIC data).\3\ 
Further, New Mexico's youth fare worse than youth in other States. New 
Mexico ranks 10th highest in youth obesity rates compared to other 
States (Trust for America's Health, 2008).\4\
---------------------------------------------------------------------------
    \3\ New Mexico Women, Infants, and Children Nutrition Program 
provided the statistics.
    \4\ Trust for America's Health (2008). F as in Fat: How Obesity 
Policies are Failing in America. Washington, DC.
---------------------------------------------------------------------------
    Increases in childhood obesity have resulted in dramatic increases 
in youth-onset diabetes. No longer do we call type 2 diabetes adult-
onset because of its alarming rates in our youth--a phenomenon that 
rarely existed a generation ago. Overweight and obese children are more 
likely to be overweight adults and suffer from chronic diseases, such 
as heart disease, certain cancers and diabetes (Dietz, 1998).\5\ Some 
health experts have predicted that this generation of children will be 
the first in our Nation's history destined to have a shorter life than 
its predecessor.
---------------------------------------------------------------------------
    \5\ Dietz, W. (1998). Health Consequences of Obesity in Youth. 
Pediatrics, 101(3) Suppl:518-525.
---------------------------------------------------------------------------
    Paradoxically, food insecurity and obesity go hand in hand. A major 
factor in this seemingly contradictory connection is that families 
experiencing food insecurity have limited incomes and are thus likely 
to purchase cheaper, higher fat or calorie-dense foods to satiate 
appetite and stretch food dollars. Such nutritious foods as fresh fruit 
and vegetables are often beyond their financial means to purchase. Low-
income families often have limited access to affordable and quality 
retail food stores. Some who experience food insecurity may also store 
fat more efficiently than others in order to conserve energy for times 
of food deprivation. Other New Mexico groups identified as being at 
greatest risk for obesity are Hispanic and Native Americans, those 
living on annual incomes of $10,000 or less, non-college graduates, 
people with disabilities, and those living in the Northwest and 
Southeast quadrants of the State (NMDOH, 2006).\6\
---------------------------------------------------------------------------
    \6\ New Mexico Department of Health. (2006). The New Mexico Plan to 
Promote Healthier Weight: A Comprehensive Plan to Reduce Obesity, 
Overweight, and Related Chronic Diseases.
---------------------------------------------------------------------------
    Research consistently shows that healthy eating behaviors and 
regular physical activity decrease the risk for childhood obesity, 
youth-onset diabetes, increased risk for chronic diseases and a lower 
quality of life. Unfortunately, New Mexico's youth fare poorly in terms 
of eating healthfully and being physically active. According to the 
State's 2007 Youth Risk and Resiliency Survey \7\ only 17.9 percent of 
students eat five or more daily servings of fruits or vegetables. Only 
28.0 percent of New Mexico high school students drink three or more 
glasses of milk a day. In terms of physical activity more than one-half 
(56.4 percent) of students do not meet recommended levels of either 
moderate or vigorous physical activity.
---------------------------------------------------------------------------
    \7\ New Mexico Department of Health and New Mexico Public Education 
Department (2007). New Mexico Youth Risk and Resiliency Survey, Santa 
Fe, New Mexico.
---------------------------------------------------------------------------
                         BUILDING A FIT FUTURE

    Recognizing the growing obesity epidemic among children and youth, 
Governor Bill Richardson charged the State's Health and Human Services 
(HHS) Cabinet Secretaries to establish the New Mexico Interagency 
Council for the Prevention of Obesity. Created in the fall of 2006, the 
DOH-led Interagency Council is charged to: (1) build greater alignment 
across State programs to create sustainable, consistent, and 
collaborative efforts and messages that increase physical activity, 
improve nutritional well-being, and prevent obesity; (2) partner with 
the private sector to strengthen and support obesity prevention 
efforts; (3) build community-wide obesity prevention programs; and (4) 
develop policies for obesity prevention. Currently, Interagency Council 
voting members represent more than 40 State programs (see Appendix A 
for complete listing) across the following eight State departments: 
Aging and Long Term Services Department; Children, Youth and Families; 
Department of Agriculture; Department of Health; Department of 
Transportation; Energy and Natural Resources, Division of State Parks; 
Human Services Department; and the Public Education Department.
    The Indian Affairs Department recently agreed to become a member. 
In addition, the Interagency Council has five affiliate (non-voting) 
member organizations: the New Mexico Healthier Weight Council, NMSU 
Cooperative Extension Services, NM Food and Agriculture Policy, 
Envision, and American Heart Association.

           INTERAGENCY COUNCIL'S KEY ACCOMPLISHMENTS IN 2008

Building Consistent and Collaborative Messages and Programs
    Interagency Council members agreed to focus their nutrition and 
physical activity messages and programming on the behavior changes 
recommended by the Expert Committee on the Assessment, Prevention and 
Treatment of Child and Adolescent Overweight and Obesity (January 25, 
2007). The recommendations focus on the following 9 behaviors:

    <bullet> Increase physical activity to 1 hour a day;
    <bullet> Limit TV and other screen time to 2 hours a day;
    <bullet> Eat 5 or more fruits and vegetables a day;
    <bullet> Drink fewer sweetened beverages;
    <bullet> Eat breakfast daily;
    <bullet> Limit eating out at restaurants, especially fast food 
restaurants;
    <bullet> Encourage family meals;
    <bullet> Limit portion size; and
    <bullet> Promote infant breastfeeding.

    The State Nutrition Action Program (SNAP), which represents public 
and private State and local agencies involved in food security issues, 
joined the Interagency Council's effort by agreeing to focus its 
messages and programming on the above nine behavior outcomes. One of 
the results was that the NM Human Services Department established these 
behavior outcomes as the State's focus for its 2009 Food Stamp 
Nutrition Education program.
    Building consistent messages and programming across public efforts 
is important. This alone is not enough to counter the more than $12 
billion spent annually by industry in marketing directed to kids and 
billions more directed to adults.
    The Interagency Council is also working to identify State and 
Federal regulatory and administrative barriers to building 
collaborative efforts among publicly-funded programs. USDA alone has 
more than a dozen nutrition and food assistance programs which are 
administered in at least five different New Mexico Departments. This 
administrative fragmentation, compounded by regulatory restrictions, 
has the unintended negative consequence of making it harder to 
effectively build obesity prevention collaborative efforts. For 
example, the Food Stamp Nutrition Education program supports nutrition 
education programs for low-income families focusing on the U.S. dietary 
guidelines. While its goals are laudable, the regulations make it near 
to impossible to tap this stream of revenue to address the specific 
issue of obesity. This is but one of many possible examples for which 
the Interagency Council is well-suited to address.

Addressing Gaps in the Continuum of Nutrition and Physical Activity 
        Efforts
    Recognizing the need to improve school lunches, the Interagency 
Council worked closely with the New Mexico Public Education Department 
to develop and apply for a 2-year $200,000 USDA Team Nutrition grant. 
PED was awarded the grant in September 2008. The grant provides for the 
development of kid-friendly healthy school meals' recipes, technical 
assistance to school cafeteria staff to learn how to purchase and 
prepare healthier school meals, educational and promotional materials 
to motivate students to make healthier school meal options, and provide 
materials to parents and classroom teachers to support students efforts 
in making healthier choices in and outside of school.
    The Team Nutrition grant is also a good example of how Interagency 
Council members can share resources to strengthen programs and reduce 
duplication. While PED leads the Team Nutrition effort, DOH was asked 
to take the lead in the development of a Web page. DOH was in the 
process of developing a Healthy Kids New Mexico Web page and many of 
the elements proposed in the Team Nutrition grant were already part of 
the DOH design. It was quickly decided that it made no sense to develop 
two similar Web sites, one at DOH and one at PED.
    Sharing resources across programs and eliminating duplication are 
extremely important, especially now as Federal, State and local 
governments face huge budgetary shortfalls. However, this is not the 
time to reduce or eliminate spending on effective obesity prevention 
programs. The long run health costs to cope with a nation of obese 
children growing up into obese adults will far exceed funds spent now 
in prevention. Beyond the financial cost, there is an enormous human 
cost. These children face a dim future of premature death, physical 
ailments, and a lower quality of life. Cutting funds now would be truly 
a case of being penny wise and pound foolish.

Building Community-wide Obesity Prevention Initiatives
    Under the leadership of DOH, the Interagency Council is piloting a 
community-wide childhood and youth obesity prevention initiative in Las 
Cruces. The Interagency Council was awarded a $100,000 1-year grant 
from the National Governors Association for start-up funding. The focus 
of the initiative is best captured in a Las Cruces Sun-News editorial 
(April 29, 2008): ``If we want to be a healthy Las Cruces, it starts 
with healthy kids; and if we want healthy kids, it starts with a 
healthy Las Cruces.''

Healthy Kids--Las Cruces: Building a Fit Future One Community at a Time
    Healthy Kids--Las Cruces aims to create and sustain public and 
private efforts to build healthy environments that motivate children, 
youth and families to eat healthier, be more physically active, and 
achieve healthy weights. It is a local and State collaborative effort 
of nearly 50 local leaders representing government, education, 
healthcare, human and social services, agriculture, non-profit and 
faith-based organizations, academia, foundations and businesses and 
State leaders representing the Interagency Council.
    Healthy Kids--Las Cruces focuses on building healthy environments 
in five community settings reaching children and youth where they are: 
in schools, restaurants (the food system), the healthcare system; the 
built environment; and families and community. Below is a brief 
description of the overall aim and key first year accomplishments in 
each setting.
    Schools: The aim is to motivate Las Cruces students to make healthy 
food choices and increase physical activity in the classroom, cafeteria 
and school at-large. Key accomplishments include: (1) increasing the 
number of Las Cruces (LC) elementary schools participating in monthly 
fresh fruit, vegetable and grain tastings; (2) increasing the number of 
LC elementary schools using the Cooking with Kids curriculum during 
school and in after-school programs; (3) the creation of edible school 
gardens in two LC elementary schools; (4) the promotion of healthy 
snacks and non-food rewards in schools; (5) increasing the number of LC 
elementary schools holding recess before lunch; (6) increasing the 
number of LC elementary schools requiring Physical Education for 30 
minutes, three times a week; and (7) piloting a half credit health 
class in one LC high school.
    Food System: The aim is to increase access to a nutritious, 
affordable and seasonal food supply and to provide point of purchase 
nutritional information on foods offered in schools and chain 
restaurants. Key accomplishments include: (1) holding weekly cooking 
demonstrations in the Income Support Division's waiting room; (2) 
exploring the availability and cost of a healthy food market basket in 
low-income neighborhoods; (3) working with the LC Farmers' Market 
Coordinator to encourage local producers to sell their produce at local 
farmers' markets; (4) creating a community garden in the Mesquite 
Historic District; and (5) exploring ways to assist consumers make 
informed food choices at chain restaurants.
    Healthcare System: The aim is to increase obesity prevention and 
treatment healthcare services. Key accomplishments include: (1) 
providing a half day best practices obesity prevention training session 
to more than 70 pediatricians, nurses, school-based health center staff 
and other health care personnel; (2) developing walking paths on 
hospital and medical facility properties; and (3) conducting the 
Healthy Eating Active Lifestyle (HEAL) program by the LC public health 
regional office to empower at-risk or obese children and youth to make 
healthier choices.
    Built-Environment: The aim is to improve ``walkability'' in Las 
Cruces. Key accomplishments include: (1) developing more than a dozen 
new walking trails for the LC community; (2) receiving State funding 
for a Safe Routes to School program (SRTS) in three schools; (3) 
conducting a LCPS district-wide parent survey to determine concerns and 
needs for the establishment of a SRTS program in their child's school; 
(4) conducting an inventory of bike racks at schools; and (5) 
testifying before the LC City Council on creating a built environment 
that promotes healthy lifestyles.
    Families and Community: The aim is to increase opportunities and 
support for community activities that motivate children, youth and 
families to be more physically active and make healthy food choices. 
Key accomplishments include: (1) The LC Mayor's Fitness and Nutrition 
5-2-1-0 Challenge. It challenges elementary students to eat 5 or more 
fruits and vegetables a day, watch 2 hours or less of TV and other 
screen time, get 1 hour or more of physical activity a day, and drink 
zero sodas and other sweetened beverages; and (2) the creation of a 
Healthy Kids New Mexico Web page designed to provide parents, teachers 
and community organizations with fun-filled activities, lesson plans, 
recipes and useful tips to assist elementary-age children in making 
healthy food choices and increase physical activity. The Web site 
address is: healthykidsnm.org.
    Conlee Elementary School: Conlee Elementary is the initiative's 
flagship school for SY 2008-2009. Nearly a dozen new programs are being 
implemented this school year (See Appendix B for a complete listing of 
programs). Not only is the initiative adding new programs during the 
school day but also outside of school. A key to its success is bringing 
in multiple community organizations to promote and support healthy 
eating and active lifestyle behaviors.
    A good example of this is the Conlee Elementary Fall Family Fiesta 
that was held last month. Sponsored by Healthy Kids--Las Cruces roughly 
425 people participated. Las Cruces Mayor Ken Miyagishima opened the 
event announcing his Fitness and Nutrition 5-2-1-0 Challenge. The Mayor 
is calling on elementary students to eat at least five servings of 
fruit and vegetables a day, spend no more than 2 hours a day watching 
TV or playing videos, get at least 1 hour of exercise a day, and 
eliminate soda from their diet--for 3 straight weeks. Throughout the 
day there were numerous physical activities, food and nutrition events 
sponsored by more than 2 dozen community organizations. The Las Cruces 
Police Department and Las Cruces Fire Department provided activities 
that included a bike rodeo, K-9 demonstration, Identi-child, and blood 
pressure checks. 203 flu immunizations were provided to both children 
and adults. The school garden was dedicated with past, present and 
future students planting flowers in the garden along with encouragement 
to parents and community members to assist with the garden throughout 
the year. Two Conlee Elementary students won new bikes provided by the 
city of Las Cruces Public Service Department and another student won a 
year-long free admission pass to the New Mexico State Parks.
    Despite NGA funding ending last month, DOH, the city of Las Cruces, 
the Las Cruces Public School District, community leaders and the 
Interagency Council have agreed to continue and expand Healthy Kids--
Las Cruces. Local and State leaders met on October 22, 2008 and 
developed the second-year action plan. Building sustainability was 
certainly a goal of the initiative and in thinking about what made 
sustainability a reality there are at least three key structural 
elements:

    <bullet> High-level State Leadership: The Interagency Council 
reports to the Health and Human Services Cabinet Secretaries and the 
Director of the Interagency Council resides in the Office of the 
Secretary, DOH. This gives the director authority to move across 
divisions and bureaus in DOH and across different Health and Human 
Services Departments. The result is a unified vision for Healthy Kids 
New Mexico and an increased number of collaborative efforts and sharing 
of resources across public programs to motivate children and youth to 
make healthy food choices, increase physical activity and achieve 
healthy weights.
    <bullet> A Strong Local and State Collaborative: While the 
Interagency Council established a framework and process for Las Cruces 
leaders to develop Healthy Kids--Las Cruces, the actual implementation 
plan was and continues to be locally driven. In December 2007, DOH 
convened a 2-day meeting with a diverse group of nearly 50 local and 
State leaders to develop an obesity prevention 5-year vision, goals, 
and action plan. On the first day local leaders developed a draft of a 
Healthy Kids implementation plan and on the second day presented the 
plan to State leaders. Together State and local leaders set priorities 
for the first year and committed their agencies or groups to work on 
specific parts of the action plan. As a result of the strong State-
local collaborative, DOH Secretary Alfredo Vigil along with three other 
NM Cabinet Secretaries were joined by the Las Cruces Mayor Ken 
Miyagishima, the Las Cruces Public Schools Superintendent Stan Rounds, 
State legislators and numerous community leaders to launch the Healthy 
Kid--Las Cruces initiative in April, 2008.
    <bullet> A Coordinating Mechanism: The success of implementation is 
in many ways due to the work of DOH's public health regional office in 
Las Cruces. Ray Stewart, the Las Cruces public health regional director 
dedicated resources and staff time to build, support and coordinate the 
community-led activities identified in the first-year action plan. The 
Health Promotion Team in the regional office has become the nerve 
center tracking the progress of activities, keeping groups on task, 
building cooperation and synergy across groups, and at times providing 
staff or resources to activities requiring additional support.

                               CONCLUSION

    A roadmap to healthier futures remains largely uncharted and we in 
government may be missing a vital piece of the puzzle. We know the 
problem, we lack a clear solution. Part of the solution may lie in 
taking a social entrepreneurial approach. Governments tend to look at 
problems programmatically. Thus we tend to tackle obesity through 
agencies such as USDA and CDC. Even when we build collaborative 
efforts, we tend to frame solutions from traditional nutrition and 
health perspectives. But, obesity is only one part of a quality of life 
issue in a modern industrial society. If we step back and look at the 
larger picture we may find ways to connect fighting the rising tide of 
obesity with other efforts aimed at improving life. Take, for instance, 
the new Federal Government's efforts to increase the number of bicycle 
paths and pedestrian walkways. This has been viewed as a means of 
bettering the environment by reducing our carbon footprint. A social 
entrepreneur might further suggest adopting the model of some European 
cities which are providing free use of bicycles. These two ideas would 
not only be good for the environment but if more people have easy 
access to bicycling to work or school, they will become fitter and 
reduce our health care costs.
    The road to reversing childhood obesity trends is long. We 
shouldn't expect changes over night. It took decades to reach this 
obesity epidemic. This insidious problem grows slowly, just like our 
personal weight gain, and it will take years to change the culture of 
our communities and our Nation so that physical activity and healthy 
eating is a social norm. A norm in which our children have an equal 
chance of making healthy choices as unhealthy choices.
    Thank you.
                                 ______
                                 
  Appendix A: The New Mexico Interagency for the Prevention of Obesity

    As part of Governor Richardson's priority to reverse the increasing 
rates of obesity in New Mexico, the State's Health and Human Services 
(HHS) Cabinet Secretaries established the New Mexico Interagency for 
the Prevention of Obesity. Created in the fall of 2006, the DOH-led 
Interagency is charged to (1) build greater alignment across State 
programs to create sustainable, consistent, and collaborative efforts 
and messages that increase physical activity, improve nutritional well-
being, and treat and prevent obesity; (2) partner with the private 
sector to strengthen and support the Governor's obesity prevention 
priority; and (3) develop policies for obesity treatment and 
prevention.
    Currently, Interagency voting members represent more than 40 State 
programs across 8 State departments. Members include:

    <bullet> DOH: Special Supplemental Nutrition Program for Women, 
Infants, and Children (WIC), WIC Fit Families, Get Healthy Together, 
WIC Fit Kids = Happy Kids, WIC Farmers' Market Program, Commodity 
Supplemental Food Program, Coordinated Approach to Child Health 
(CATCH), Kitchen Creations, National Dance Institute--``Hip to be 
Fit,'' Fruits & Veggies: More Matters, Children's Medical Services, 
Public Health Clinics, School-based Health Centers, Community Health 
Councils, LEND, and Senior's Local Motion;
    <bullet> PED: National School Lunch, National School Breakfast, 
Special Milk, Summer Seamless School Feeding, Fresh Fruit & Vegetable 
Program, Healthier U.S. Schools, Physical Education, before & after 
school physical and nutrition programs, School Districts Wellness 
Policy, Nutrition Competitive Foods Rule, and Health Education and 
Physical Activity Standards;
    <bullet> HSD: Food Stamp Program, Food Stamp Nutrition Education 
Programs (ICAN, Kids Cook, and Cooking with Kids), Food Distribution 
Program, Food Banks, Medicaid, and NM Hunger Task Force;
    <bullet> CYF: Child and Adult Care Food Program & Summer Service 
Food Program;
    <bullet> ALT: Nutrition Services Incentive Program (NSIP), Senior 
Olympics and Farmers' Market Pilot;
    <bullet> DA: Farmers' Markets, Farms to School Program, and Taste 
the Tradition Program;
    <bullet> DOT: Safe Routes to School; and
    <bullet> SP: New Mexico State Parks.

    In recent months, the Interagency added five affiliate (non-voting) 
organizations: the New Mexico Healthier Weight Council, NMSU 
Cooperative Extension Services, NM Food and Agriculture Policy, 
Envision, and American Heart Association.

                    Healthy Kids, Las Cruces--Conlee Elementary Nutrition & Fitness Programs
                                                 [SY 2008-2009]
----------------------------------------------------------------------------------------------------------------
    Nutrition and Fitness Programs     Pre-K    K     1st    2nd    3rd    4th    5th          Lead Agency
----------------------------------------------------------------------------------------------------------------
During School:
  * SAJAI Fitness Program............             X      X      X      X      X      X  Conlee PE teachers
  * PE 3 times/week..................                                                   Conlee PE teachers
  * Recess before lunch..............                                                   Conlee teachers
  * Color Me Healthy.................      X                                            CYFD train P-K teachers
  * Cooking With Kids................                                         X      X  Dona Ana Coop. Extension
  * Eat Smart, Play Hard.............                           X                       Dona Ana Coop. Extension
  * Organ Wise Guys..................             X      X      X      X                Extension train Conlee
                                                                                         teachers
  Fruit, Vegetable & Grains Tastings.             X      X      X      X      X      X  LCPS Student Nutrition
                                                                                         Services
  Breakfast in the Classroom.........             X      X      X      X      X      X  LCPS Student Nutrition
                                                                                         Services
Out of School Time:
  * Safe Routes to School............             X      X      X      X      X      X  DOH & Metropolitan
                                                                                         Planning Org.
  * School Edible Garden.............             X      X      X      X      X      X  Master Gardeners &
                                                                                         School Council
  * 4-H Activities...................             X      X      X      X      X      X  Dona Ana Coop. Extension
  * Family Cooking & Fitness Program.      X      X      X      X      X      X      X  DOH & Dona Ana Coop.
                                                                                         Extension
  * Family Fitness & Fun Fiestas (2).      X      X      X      X      X      X      X  LC Rec. Dept. & DOH
  * HEAL Program.....................             X      X      X      X      X      X  DOH
  Before & After School Program......             X      X      X      X      X      X  LC Recreation Dept.
  * Conlee Staff wellness program....                                                   DOH
  * Mayor's 5-2-1-0 Challenge........      X      X      X      X      X      X      X  LC Mayor
  * HealthyKidsNM Web Page...........             X      X      X      X      X      X  DOH
  * Social Marketing Efforts.........      X      X      X      X      X      X      X  DOH & Interagency
                                                                                         Members
* Program Evaluation:
  * Students' Eating & Fitness                                                          DOH
   Behaviors.
  * Students' BMI & Fitness Measures.                                                   DOH
Conlee Neighborhood:
  * Nutrition Disclosure on Menus and
   menu boards in chain restaurants
   (pending).
----------------------------------------------------------------------------------------------------------------
New programs established by Healthy Kids, Las Cruces initiative.


    Senator Bingaman. Thank you very much.
    Ms. Walters, why don't you go ahead and tell us about 
Cooking With Kids and similar programs and what they contribute 
to solving this problem?

  STATEMENT OF LYNN WALTERS, EXECUTIVE DIRECTOR, COOKING WITH 
                       KIDS, SANTA FE, NM

    Ms. Walters. Thank you, Senator Bingaman and Senator-elect 
Udall. Thank you for this opportunity. I appreciated seeing you 
both in our schools and for all your efforts on behalf of 
children over the years.
    As you well know and has been really well said here, 
childhood obesity and nutritional deficiency is a serious 
public health issue. Last year in Santa Fe, actually due to the 
efforts of the Salazar Partnership for Healthy Schools, two 
schools did measure BMIs.
    Actually, they have done it for 2 years now with private 
funding and found that of the 904 students attending Salazar 
and Agua Fria elementary schools, 28 percent were obese--not 
overweight or obese, but obese. That is rather startling. One 
of the schools actually was 34 percent.
    I feel like it is my role here to really talk to you about 
one solution or one piece that can be the solution. Today, many 
children are no longer learning from their parents or 
grandparents how to cook or where food comes from, how to grow 
it. We have forgotten, in large part, the pleasure of preparing 
and eating healthy foods, the connection among families and 
community that comes from such pleasure.
    We have observed today that children know that they are 
supposed to eat vegetables rather than candy. Almost every 
child knows that, right? Preferences and availability drive 
most of our food choices. Developing healthy preferences and 
cooking skills through direct experience with food is an 
important component of changing the culture of obesity.
    As you mentioned, Cooking With Kids was initiated in 1995 
as a volunteer program in two schools in Santa Fe with the 
intent to improve children's nutrition through hands-on food 
and nutrition education and to positively impact school meals.
    Cooking With Kids' purpose is to motivate and empower 
children to make healthy choices by supporting their innate 
curiosity and enthusiasm for food. They learn directly about 
healthy eating through hands-on activities with fresh, 
affordable foods from many different cultures.
    We currently work with over 4,400 children, prekindergarten 
now, some, through 6th grade in 12 low-income Santa Fe public 
schools. Last year, over 1,200 parents and grandparents 
volunteered during school day cooking classes, and we found 
that many parents who might be intimidated by coming to school 
when they were not successful in school are comfortable in 
participating in cooking classes.
    The objectives of this program and other programs that work 
with hands-on food experience are for children to learn to 
accept a wide variety of healthy foods, that they will acquire 
practical food preparation skills, and to learn about people of 
other cultures while working cooperatively.
    We have developed a bilingual interdisciplinary curriculum 
that meets many New Mexico public education standards in math, 
language, art, science, and social studies, which supports core 
curriculum. The heart of our program is the hands-on 
experience--touching, smelling, preparing, cooking, and 
tasting.
    The classroom component consists of cooking classes taught 
by our staff, who partner with classroom teachers and parent 
volunteers, and fruit and vegetable tastings, to helping 
classroom teachers with materials and food provided by Cooking 
With Kids.
    Patty Morris alluded to, in Las Cruces, actually those 
fruit and vegetable tasting classes are being implemented as 
well.
    Some of the foods that children cook we might not think of 
as child foods. They are not macaroni and cheese that we have 
made children friendly. Children cook vegetable paella with 
green salad, minestrone soup with breadsticks, East Indian 
lentils with carrot rice pilaf, and vegetable tamales with red 
chili. Senator Bingaman years ago saw students preparing fresh 
green and white fettuccine with tomato basil sauce.
    As the students prepare, share, and enjoy the fresh healthy 
foods together, they have multiple opportunities to learn, to 
exercise choice, and to enjoy eating together. In an effort 
also to link classroom learning with school meals, we continue 
to work with Santa Fe public schools to improve the appeal and 
quality of school lunches that children will eat.
    We provide hands-on training for cafeteria managers using 
real food, although only once a year. Cooking With Kids-
inspired school lunches are served about twice a month in all 
21 Santa Fe public schools' elementary school cafeterias, and 
now in some of the middle and high schools.
    The challenges really are our current eating and lifestyle 
patterns, which are a reflection of our societal values. As a 
result, cheap processed foods, conflicting messages, a dearth 
of cooking skills, lack of availability of affordable healthful 
foods in many areas are some of the barriers that we face.
    In the realm of school meals, the status afforded to the 
women, mostly women, who cook for our children is very low, 
with accompanying low wages. Were we to give school food 
service workers the status and wages of high-powered chefs, 
were we to respect them and care that they are feeding our 
children, we would be making a meaningful statement about our 
priorities.
    Lack of time for helping on this programming also is a 
growing challenge as the demands of No Child Left Behind are 
increasing. Cooking With Kids was initiated before No Child 
Left Behind, which I think has afforded it an advantage in the 
Santa Fe public schools.
    However, were such a program to become an integral part of 
a school district rather than being implemented by a community 
partner, as we are, it could be swept away in a moment by any 
number of pressures that are facing schools, financial or 
academic.
    Sustainability for social programs, as you know, is a 
continuing challenge. Funding, staffing, and community support 
must be ongoing. Facilities in schools also pose challenges, 
especially, for such a program as ours, the availability of 
dedicated classroom with adequate utilities. As computers are 
taking more energy in schools, we have even found that circuits 
are not adequate for even electric appliances.
    In addition, in Santa Fe, more schools would like to have 
Cooking With Kids than we are able to serve.
    As I have said, the experience of cooking together is at 
the heart of what we do. It is a success when a child fishes 
around in his minestrone soup that he just helped make, pulls 
out a piece of kale, and says, ``I like this.'' And that has 
happened.
    A second grade student reported, ``You know these recipes 
you give us? My grandma cooks all of them for dinner.'' A 
teacher commented, ``We all benefit as a society when kids have 
skills, confidence, and a broader appreciation of many 
cultures.''
    We are currently fortunate to be involved in a research 
project that was funded by USDA/CSREES/NRI that is being 
directed by Colorado State University. It is entitled, 
``Cooking With Kids: Integrating Classroom, Cafeteria, and 
Family Experiences to Increase Fruit and Vegetable Preference 
and Intake.''
    The project is investigating the following--do the 
experiences provided by Cooking With Kids contribute to more 
healthful food choices and thus reduce children's risk for 
developing obesity and chronic disease?
    We just have some preliminary results from the initial data 
collected last year from 700 fourth grade students in 11 Santa 
Fe public schools. These are preliminary. We will have full 
results next year.
    We have found that in comparison with children that are not 
participating in Cooking With Kids, cooking and tasting 
classes, children enjoy cooking, whether it is in the classroom 
or at home. That might seem small, but perhaps it is a missing 
piece.
    Confidence in cooking abilities, their self-efficacy 
increased significantly in children participating in Cooking 
With Kids compared with children from nontreatment schools. 
Preferences for fruits and vegetables were greater in children 
from Cooking With Kids schools than in children from 
nontreatment schools.
    In conclusion, I appreciate your concern for the health of 
our children and applaud your efforts to make the world a 
better place. You can help by supporting sustained funding for 
nutrition education programming and, in addition to the SNAP ed 
or formerly Food Stamp Nutrition Education funding, which 
rightly serves children from low-income families, I believe 
that Government commitment to all children is needed.
    This means support for children to have hands-on experience 
with healthy real foods as an integral part of their education. 
In addition, there is need to support new funding for school 
meals, which I know is a pipe dream at the moment. Also, 
though, continuing to support farm-to-school and local 
agricultural initiatives, which are really burgeoning across 
the country.
    Convenience and indifference have brought us to this 
moment. Diligence, attention, and the commitment to work 
together is needed to make a positive difference in our 
communities.
    Teaching nutrition using real food is not fast, cheap, or 
easy. There is value and satisfaction in self-reliance, and all 
children deserve to eat healthful, delicious foods and have the 
skills to take care of themselves. They are proud of these 
schools.
    We must remember the child who remarked after eating 
delicious Greek food that they had just prepared, ``There is 
joy in my mouth now.''
    Thank you.
    [The prepared statement of Ms. Walters follows:]

                   Prepared Statement of Lynn Walters

    Senator Bingaman, guests, and distinguished leaders. Thank you for 
your work on the pressing issues of our time and for the opportunity to 
testify before you today. As a parent and as Founder and Executive 
Director of a small non-profit organization, I am deeply concerned with 
the health and well-being of children. We hope that the efforts of 
Cooking with Kids will not only benefit the children with whom we work, 
but will inspire others in their efforts to support a healthy future 
for all children. I appreciate your invitation to discuss Cooking with 
Kids purpose, challenges, and successes with this committee.

                     OBESITY IN NEW MEXICO CHILDREN

    According to a recent study of New Mexico children 2-5 years old 
participating in Federal nutrition programs, 24 percent were considered 
overweight or obese. In a 2005 New Mexico survey of high school 
students, 26 percent were overweight or obese. As you are aware, the 
health risks of obesity are significant, including increased risk for 
the development of diabetes, hypertension, cardiovascular disease, and 
psychosocial problems. In Santa Fe, an evaluation summary of the 
Salazar Partnership Health Promotion Project reported in 2008 that 28 
percent of the 904 students attending Salazar and Agua Fria Elementary 
Schools were considered obese. These two public schools have an average 
of 80 percent of students who qualify for free or reduced-price school 
meals.
  cooking with kids gets children excited about eating healthy foods!
    Cooking with Kids was initiated in 1995 as a volunteer program in 
two schools with the intent to improve children's nutrition through 
hands-on food and nutrition education and to positively impact school 
meals. Through Cooking with Kids' activities, elementary school 
students learn directly about healthy eating through hands-on 
activities with fresh, affordable foods from diverse cultures.
    The objectives of Cooking with Kids are that children will:

    (1) Learn to accept a wide variety of healthy foods;
    (2) Acquire practical food preparation skills; and
    (3) Learn about people of different cultures, while working 
together cooperatively.

    Cooking with Kids serves 4,400 low-income children in 12 Santa Fe, 
NM schools; an average of 77 percent qualify for free or reduced-price 
school meals. During 2007-2008, the organization provided 2,043 hands-
on food and nutrition education classes, including 868 fruit and 
vegetable tasting lessons taught by classroom teachers. Cooking with 
Kids delivers trained food educators, bilingual Spanish/English 
curriculum materials for teachers and students, equipment, food and 
supplies schoolwide.
    The bilingual curriculum is a unique, interdisciplinary model of 
classroom food and nutrition education aligned with New Mexico Public 
Education Standards and Benchmarks in the areas of math, language arts, 
science, social studies, wellness, and art that is linked with school 
meals. Cooking with Kids develops and provides curriculum materials for 
teachers and students, with student materials and home recipes for 
families in Spanish and English. Activities are designed to correspond 
to developmental needs of the children, with student materials tailored 
for grades K-1, 2-3, and 4-6. Guided lessons with fresh healthy foods 
provide a quality experience that is not otherwise available to 
students, particularly students from low-
income families. As students prepare, share, and enjoy fresh affordable 
foods from diverse cultures they have multiple opportunities to learn 
food preparation skills, to exercise choice (children are never forced 
to eat), and to enjoy healthy foods. Families are invited to 
participate as volunteers and family cooking classes in the evening 
offer unique opportunities for families to learn together.
    Many families who might otherwise feel excluded and intimidated by 
the school environment feel welcome and valued in cooking classes. 
During the 2007-2008 school year, 1,200 parents and grandparents 
volunteered in cooking classes during the school day.
    Cooking with Kids school lunches are served several times a month, 
connecting classroom learning to cafeteria meals. Examples of foods 
that students prepare in cooking classes and are subsequently prepared 
by school food service to be served as school lunches are Llapingachos 
(Ecuadorian potato dish), Chinese-American Fried Rice, Vegetable Paella 
with Green Salad, East Indian Lentils with Carrot Rice Pilaf, Vegetable 
Tamales with Red Chile, and Minestrone with Bread sticks. Cooking with 
Kids provides hands-on training for the foodservice workers who prepare 
school meals, and collaborates with the Student Nutrition staff to 
serve Cooking with Kids school lunches. In collaboration with the New 
Mexico Department of Agriculture and Santa Fe Public Schools, we 
encourage and facilitate the use of New Mexico-grown produce in school 
meals as part of a Farm to School Program. Cooking with Kids produced 
large-scale posters that depict New Mexico farmers which are displayed 
in cafeteria dining rooms.

                                 AWARDS

    <bullet> 2005: Cooking with Kids received a national award 
recognizing Leadership, Innovation, and Nutrition Collaboration from 
USDA Food and Nutrition Services in the category of Partnerships and 
Collaborations. The award recognizes projects that use collaborative 
methods and integrated approaches in planning, developing, and 
delivering nutrition education involving multiple Food and Nutrition 
Services programs, which include Food Stamp and Child Nutrition 
programs.
    <bullet> 2007: Cooking with Kids, Inc. was chosen as the non-profit 
to receive a national Innovation in Prevention Award by the U.S. 
Department of Health and Human Services for its efforts in promoting 
healthy lifestyles in communities.
    Children's voices:

          I love Cooking with Kids! I can make things I didn't think 
        I'd like, but I do!

          CWK helps us to learn to eat more healthy foods and less junk 
        food.

          Lentils have iron--that makes you strong.

          We learned what India eats.

          We learned how to cook and clean up after ourselves.

          I learned to do the rice with my mom.

          We know where the food is from.

          We learned how to hold the knives.

          We cleaned our hands and everything else.

          Cooking with Kids makes us feel healthy and not tired.

          Chinese Fried Rice has lots of vegetables.

          I think we learned how to work better together.

          Try new things because maybe you will like them.

          The fruit salad is healthy because it has vitamins and 
        minerals.

          You have to be patient.

          When you cook it's good and you're doing something for 
        yourself.

          There is joy in my mouth now!

                               CHALLENGES

    Our current eating and lifestyle patterns are a reflection of 
societal values. As a result, the challenges are many, including cheap 
processed foods, conflicting messages, a dearth of cooking skills, and 
lack of availability of affordable, healthful foods in many areas. In 
the realm of school meals, status afforded to women who cook for our 
children is very low, with accompanying low salaries. Were we to give 
school foodservice workers the status and remuneration of high-powered 
chefs, we would be making a meaningful statement about our priorities.
    Lack of time for health and wellness programming is a growing 
challenge, as the demands of No Child Left Behind (NCLB) are 
increasing. Cooking with Kids was initiated before NCLB, which has 
afforded it an advantage in Santa Fe Public Schools. However, were such 
a program to become an integral part of a school district, rather than 
being implemented by a community partner such as Cooking with Kids, it 
could be swept away in a moment by any number of the myriad pressures 
facing schools: financial or academic.
    Sustainability for social programs is a continual challenge. 
Funding, staffing, and community support efforts must be ongoing. 
Teaching nutrition using real food is not fast, cheap, or easy!

                               SUCCESSES

    The experience of cooking together is the heart of what we do. In 
this process, we observe that all of the children are enthusiastic 
participants and almost all children are excited to eat the foods that 
they have prepared.

                             A FEW STORIES

    I consider it a success when a child fishes around in his 
Minestrone soup that he just helped make, pulls out a piece of kale and 
says, ``I like this.''
    A second grade student reported, ``You know those recipes you give 
us? My grandma cooks all of them for dinner.''
    A teacher noted that she was happy to have a (CWK) teacher that 
speaks Spanish because now the Spanish speaking moms who don't feel 
comfortable coming to other activities come to Cooking with Kids 
cooking classes.
    Two classroom teachers noted that the autistic special needs boys 
in their classes were able to stay with the cooking activity for the 
entire 2 hours without disruption. The boys learned to enjoy the food 
preparation, enjoy social interaction, and especially enjoyed washing 
dishes. They were proud contributors to the class.
    Two fifth grade classes had ``salad parties'' and brought in extra 
ingredients to make big salads to share.
    As one teacher commented, ``We all benefit as a society when kids 
have skills, confidence, and a broader appreciation for other 
cultures.''
    Cooking with Kids' innovative model of interdisciplinary education 
for Kindergarten through sixth grade students has inspired programs in 
several New Mexico communities. Las Cruces Public Schools now offers 
Cooking with Kids fruit and vegetable tasting classes in 14 schools and 
is currently piloting cooking classes in several schools. Inspired by 
the Cooking with Kids founders and curriculum, Albuquerque Public 
Schools has adapted the program and materials to meet the unique needs 
of a large urban school district. In an effort to offer the curriculum 
more widely, with support from the Robert Wood Johnson Foundation, 
Cooking with Kids developed a Web site that provides free access to 
fruit and vegetable tasting lessons for grades K-1, 2-3, and 4-6: 
www.cookingwithkids.net. Cooking curriculum, a program DVD, and Cooking 
with Kids school lunch recipes for institutional use are available for 
sale via the Web site. Over 1,500 individuals have downloaded free 
fruit and vegetable tasting lessons and individuals and institutions 
from over 20 States have purchased curriculum. Several colleges of Home 
Economics and Extension have procured curriculum for use through County 
Extension programs.

                                RESEARCH

    Funded by USDA CSREES National Research Initiative, a 4-year 
research project is being conducted by Colorado State University. 
Entitled: Cooking With Kids: Integrating Classroom, Cafeteria and 
Family Experiences to Increase Fruit and Vegetable Preference and 
Intake, this project is under USDA Agreement No.: 2006-55215-18718; 
Proposal No.: 2007-05062. The Principal Investigator is Leslie 
Cunningham-Sabo, Ph.D., RD, Colorado State University; Co-PI Lynn 
Walters, Cooking with Kids, Inc.
    This project is investigating the following questions: Does direct 
experience with fresh, affordable foods from diverse cultures, 
including cooking and tasting fruits and vegetables, increase 
children's preferences for and consumption of these foods? Will 
positive experiences with fruits and vegetables in the classroom plus 
cafeteria promotion improve students' acceptance of fruits and 
vegetables? Can family food preparation and eating practices be 
modified to support more healthful dietary patterns? Do these 
experiences contribute to more healthful food choices, and thus reduce 
children's risk for developing obesity and chronic diseases?
    Results are promising from initial data collected from 700 4th 
grade students in 11 Santa Fe Public Schools. The preliminary results 
below are from the first year of a 2-year data collection in this 
evaluation of the Cooking with Kids program:

    1. Children enjoy cooking, whether it is in the classroom or at 
home;
    2. Confidence in cooking abilities (self-efficacy) increased 
significantly in children participating in Cooking with Kids compared 
with children from non-treatment schools;
    3. Preferences toward fruits and vegetables were greater in 
children from Cooking with Kids schools than in children from non-
treatment schools.

                               CONCLUSION

    I appreciate your concern for the health of our children and 
applaud your efforts to make the world a better place. Congress can 
support increased and sustained funding for nutrition education 
programming and for fresh and healthy school meals. Convenience and 
indifference has brought us to this moment. Diligence, attention, and 
the commitment to work together is now needed to make a positive 
difference in our communities.
    There is value and satisfaction in self-reliance. We must remember 
the child who remarked, after preparing and eating Greek Pastitsio, 
``There is joy in my mouth now.''
    Thank you for providing this opportunity to participate in the 
democratic process by testifying before this committee.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      

    Senator Bingaman. Thank you very much.
    Let me ask, do you have any more information on this, you 
say that two of the schools are Acequia Madre and Salazar?
    Ms. Walters. No, it was Agua Fria and Salazar.
    Senator Bingaman. Agua Fria. There was for a 2-year period, 
where they did measure body mass?
    Ms. Walters. Yes.
    Senator Bingaman. How was that done? Was that funded?
    Ms. Walters. Well, it was funded primarily by a private 
foundation that is actually in New York State who has a 
connection to community members here. It is really a project 
that was started by several people who started a reading 
program at Salazar, and then it expanded to Agua Fria. Now it 
is really a small consortium of people working on how to look 
at the health of the students in these schools.
    There is more information that I can certainly send you, 
but the funding for--and there has been a lot of discussion, 
too, about the measuring of BMI or not. The school nurses in 
Santa Fe are part-time. Usually a school has a nurse 2 or 3 
days a week. This funding, in addition to other things, has 
paid for the nurses at these two schools to be full time. They 
have had time to do the BMI measurements.
    Senator Bingaman. Dr. Morris, what is your reaction to the 
thought that maybe we should just follow Arkansas's lead and go 
ahead and do this measurement of body mass throughout our 
elementary schools?
    Ms. Morris. I think it is an excellent idea. If I could 
just add one barrier that I don't think I heard discussed 
around the BMI, which I have heard from a lot of nurses, school 
nurses in the State of New Mexico that they have difficulty--
they don't want to measure kids.
    The reason they don't is so many of their kids are 
uninsured. If they measure the child and if they determine the 
child is obese, what do they tell their parents if the children 
are uninsured? So that there is a link at least in the State of 
New Mexico that there is a concern around, where do I send 
them?
    Now in our Healthy Kids Las Cruces, what we are trying to 
do is to initiate a BMI in at least our Conlee Elementary, if 
not in the entire Las Cruces public school district, where the 
Department of Health will take on the burden and hopefully work 
with some of the pediatricians, even if you are uninsured. If 
you come up with a BMI level that puts you at obese, that you 
will have the medical attention that you need.
    That is one difficulty that we have, at least here in New 
Mexico. I think we absolutely have to measure BMI in order to 
get a handle on where the problem is, the extent of the 
problem, and whether or not we are making any progress. I think 
it is an excellent idea.
    Senator Bingaman. Let me just ask for my own information 
here, Dr. Thompson, the actual measurement, collection, and all 
of this information on BMI was done through the Department of 
Education in Arkansas. Is that right?
    Dr. Thompson. It is actually the responsibility of the 
local school districts and local schools. We had the same sets 
of issues with limited nursing personnel. We found an enormous 
wealth of interest.
    Actually, we found in a few of our elementary schools, PE 
teachers who were already trying to do it with a hand 
calculator. The PE teachers in elementary schools were probably 
the strongest advocates because they took it as a professional 
affront that they were losing on the obesity side. We really 
brought in not just the school nurse personnel, but the 
physical education teachers.
    We also found that many of our nurse training programs--the 
LPN schools, the others that were across the State--highly 
value the chance to get their students just hands-on contact on 
doing basic assessments. We got a lot of free labor, if you 
will, by connecting schools that needed help with nurse 
training programs at the LPN or at the bachelor-level training 
programs.
    I might comment about that letter, if I could?
    Senator Bingaman. Please.
    Dr. Thompson. Our letter home to parents, we struggled with 
the same issue on the uninsured piece. I think there is a 
critical decision and a potential trap if we think that this 
obesity epidemic is a medical issue. It is a social issue.
    What we did was give parents four things that had evidence 
bases underneath that they could do, that they could reduce the 
soft drinks, as your 5-2-1-0.
    Ms. Morris. No, we are not----
    Dr. Thompson. You are at zero. Eliminating sugared soft 
drinks, going to no-fat milk, 2 hours of screen time a day, and 
for the whole family to have a physical activity pattern where 
they were trying to do something because it is not going to 
work to tell the kid to go out if the dad is sitting on the 
couch. It is as big a problem as ever.
    This we did take--we said it is a social issue, and then we 
worked with our healthcare system to be able to wrap around 
that. We didn't primarily say to parents of overweight 
children, you need to go see your doctor. I mean, that was not 
the approach that we took.
    Dr. Sanchez. Can I jump in and say that is the right 
approach. However, one of the things that Dr. Thompson did 
mention is that some change in how we go about using Medicaid 
and SCHIP would allow for some of the concern about where one 
goes to be addressed.
    I agree wholeheartedly that if we make this a medical 
issue, then what we start doing is sticking needles in 
children's arms and testing them for a whole host of things for 
which just the testing is going to cost more money than having 
a rational approach to a population-based social and population 
health issue.
    I wholeheartedly agree with the issue of the uninsured, 
remember, I said I was initially opposed? That was why. The 
State of Texas has the dubious distinction of having the 
highest uninsurance rate not only for everyone, not only for 
adults, but also for children.
    My concern was that the system might not be able to 
accommodate what we found and that parents would find 
themselves in a situation where they didn't know what to do. I 
think this approach of giving folks some solutions is an 
excellent approach that again says the solution lies within 
you, and the medical care system is there if you need it for 
other things. At the end of the day, the solution lies within 
your home and within your community.
    Senator Bingaman. Well, the changes in Medicare and SCHIP 
that you are talking about are, I think Dr. Thompson referred 
to it, we should change the definition of what is covered to 
include obesity. Is that the main change?
    Dr. Sanchez. Not only diagnosis change, but what 
constitutes--I would add what constitutes a reimbursable 
intervention.
    So that we have communities where if you see a nutritionist 
dietician, you may end up having to go to an endocrinologist's 
office, where there are equally qualified folks in communities, 
sometimes within school districts, who could provide the same 
service in a community setting as opposed to a medical care 
setting, and our reimbursement mechanisms aren't as friendly to 
that community-based setting or school-based setting as they 
might be.
    If you have a school-based clinic, that is one thing. If 
you don't have a school-based clinic, and in Texas, there are 
many communities that don't, you still might be able to avail 
yourself of the services of a nutritionist, of a behavioralist, 
somebody to meet with the family and help begin thinking about 
change.
    The one other thing about the behavioralist is sometimes 
the reimbursement is around the service provided to the child. 
We need to think about how we might have services that are 
provided to the family because it is a family change that has 
to take place ultimately.
    What happens in the school provides the hub, but all the 
other places where a child lives his life is--it is all 
complementary and synergistic.
    Dr. Thompson. If I could add something? In the SCHIP 
legislation explicitly, just including obesity as a 
reimbursable condition is a specific change that would be very 
beneficial for guidance to State programs.
    Now I think the other issue, which we get into and I think 
State programs will have to work with the Center for Medicaid 
and Medicare Services, is our healthcare programs are pretty 
good at paying the doctor for doing something. The doctor is 
probably, as we learned with tobacco cessation, not the person 
you want teaching the parent or the family how to do better 
nutrition.
    We want a nutritionist who is educated on how to engage 
families and support those changes. Right now, many of our 
Medicaid and SCHIP programs don't extend the reimbursement to 
that nonphysician support, which frequently can be done in a 
group setting very efficiently and maybe more economically. I 
would be willing to bet much more successfully than having the 
physician do it, even though we will pay the physician to do 
it.
    This is one of those places we can make the system better, 
make it more effective, and probably not cost that much.
    Senator Bingaman. Dr. Morris, did you have a comment you 
wanted to make?
    Ms. Morris. I did. I have two comments. One was back to the 
BMI. One of the things that we are struggling with to overcome 
this barrier around how do we actually measure it is actually 
use it as an empowerment tool or an education tool.
    Why is it that we can't in our physical education classes 
have kids learn how to take their--some very simple fitness 
measures and then set goals for themselves, and then a month 
later, ``I am going to get my resting heart rate down,'' or ``I 
am going to know what my weight is and my height.'' So that 
they begin to take more ownership of it. You can collect the 
data as a monitoring piece, but it also can be used as an 
educative piece.
    Now we have to sort of keep them separate at a State level 
in terms of monitoring, but one of the things we are hoping to 
do in the Conlee Elementary School is to really test that, and 
I think we are going to use the FITNESSGRAM that Dr. Cooper 
from Texas has really set up, which is five or six very simple 
measures around fitness and have the kids use those and measure 
themselves during their classes so that we can do that.
    I think that is one way of sort of dealing with greater 
integration. The other piece is it is really important for the 
Federal Government to open up some of the--in the Medicaid 
issue. Also, at the State level, we have to get our State 
legislators to agree to open up those pieces as well.
    We absolutely need it at the Federal level, first and 
foremost. Then, again, it comes up to how much is the State 
willing to pay to whether or not they are going to open it up.
    Senator Bingaman. Congressman Udall, go ahead.
    Mr. Udall. Thank you, Senator Bingaman.
    Just building on what all of you just exchanged back and 
forth there, which I think was a very, very good exchange in 
terms of saying that this, if you identify the problem, is a 
social problem rather than immediately turning it into a 
medical problem, when we were discussing the BMI, and having 
that kind of approach.
    Now Dr. Morris mentioned in her testimony, and we know that 
this is true, these disproportionate rates of obesity and 
diabetes among minorities. In New Mexico, I believe you put in 
32.4 percent of American Indians, 26 percent of Hispanic high 
school students--this is in 2007--were overweight or obese 
compared to 18.6 percent of white, non-Hispanic students.
    My question for all of you is what are the particular 
challenges in reaching minority populations on these issues, 
and what particular approaches should we keep in mind as we 
attempt to craft legislation at the Federal level?
    Ms. Morris. We struggle with this, and I think what I--sort 
of based on my experiences, I think we are balancing best 
practices versus innovation, experimentation, local 
determination of the kinds of programs we want.
    One of the reasons we picked Las Cruces was because more 
than half of its student population is Hispanic. In order for 
us to reach hard-to-reach groups, it has to be done more from 
the local community and the local ethnic group taking charge in 
responsibility and leadership.
    I see my role at the interagency of providing resources, 
providing advice, guidance, helping set frameworks. Ultimately, 
it has to be the Hispanics in Las Cruces saying these are the 
barriers I face. These problems are real to me today, and this 
is how I want to make those changes. Then it is for us to work 
together to set them up. It is very difficult.
    Dr. Sanchez. I would say, to add on to that, we talked 
about cultural sensitivity and cultural competence, very 
important. At the end of the day, what we ought to be measuring 
is cultural effectiveness.
    I would say to you the interesting thing about the CATCH 
program is that it was tested in what is a demographically very 
diverse population in El Paso, TX, and it had the desired 
effect.
    While we need to be sensitive to cultural sensitivity and 
cultural competence, we ought to be measuring whether things 
are effective or not and how much they might be applicable in 
different subpopulations. Outreach is very, very important.
    There are some subpopulations where our standard approaches 
to school-based activities or even community-based activities 
are not going to work the same way that they might in another 
subpopulation. We need to understand how we might do outreach 
differently.
    I am somebody who believes very, very strongly in the 
community lay health worker model, the Promotores model. It is 
not only effective in Latino populations, the Southern States 
has been using those community lay health worker models to go 
out and engage at the home level and at the community level, 
rather than having the thought that you initiate gatherings at 
the school or some other independent setting.
    I think also just the issue of poverty is one. If we think 
about the fact that one of the challenges that we have in our 
Nation is that when we look at graduation rates of our 
subpopulations, Latinos, African-Americans, and American 
Indians are not as high as they ought to be.
    If we could think about approaches that, particularly in 
the school setting, was about not leaving any child behind even 
while we address this issue of childhood obesity, we could 
begin to convince ourselves that fit kids are smart kids, smart 
kids are fit kids. They go together. It is not one or the 
other.
    As it relates to the nonwhite subpopulations, it might make 
sense to do these three things--cultural sensitivity, outreach 
in a different way, and then assuring that in the school 
setting, we are not only doing the right nutrition things and 
physical activity things, but actually thinking about and 
demonstrating what works in terms of graduating our young kids 
out of school.
    Because at the end of the day, as we think about this and 
we look at the statistics--Dr. Thompson, I think everyone here 
would agree with me--is that if we could achieve graduation 
rates among Latinos and African-Americans that we have among 
whites and some of the subpopulations among Asians, some of 
what we are talking about begins to go away because it tracks 
with poverty and educational attainment as much as it tracks 
with race/ethnicity.
    Dr. Thompson. I think the one thing, and I completely agree 
with the cultural issues. I would not want, because you are 
going to have actionable opportunities in the short run, to 
highlight the interrelationship to poverty. I have poor white 
communities. I just have more poor minority communities 
concentrated in our State.
    On your economic stimulus package or on the decisions on 
reauthorization, to the extent that you can assure or ensure or 
require or incentivize or heighten awareness of the need for 
those investments to not just be sprinkled geographically 
evenly across the States that are going to receive that 
funding, but to be targeted to communities that have been 
economically disenfranchised. Because those are the communities 
that have the least capacity to use the information from a BMI 
report or from a local leader who wants to make something 
happen or from a change in the cultural perspective.
    Those are the communities that need the most support. So 
that when the new road gets built, it actually doesn't divide 
where the kids live from where the school is. Because when the 
road gets built, it won't be decided by that local community.
    Just incorporate some of those poverty-related issues into 
the thoughts on your economic stimulus package and targeting 
not just to States, because your States and your communities 
that are more affluent are going to get through this. The 
communities that are least affluent and least empowered are 
going to be set back farther and have more risk for their 
children on this issue.
    Ms. Morris. If I could just add one other point? I think we 
have forgotten a very important group, which are our students. 
We are working right now, the interagency, with the Santa Fe 
Indian School. We are helping in their culinary arts program, 
teaching students basically how to prepare healthy traditional 
American Indian foods.
    They are learning how to do nutritional analysis and 
reformulating. What they are going to do is go back, because 
the Santa Fe Indian School is owned by and run by the 19 
pueblos in New Mexico, and so the students, part of their 
responsibility is then to go back and to teach the elders in 
their community and go to the senior centers in their community 
and teach them the healthy alternatives to traditional 
indigenous foods.
    As part of that cultural sensitivity and cultural 
effectiveness and bridging the community and the schools and 
the students, students I think can play a very important role 
when they go back to their culture, especially in communities 
where culture, community, and families are still important, 
which tends to be in Native American and Hispanic cultures, 
more so I think than Anglo.
    Dr. Sanchez. Can I add because we talked about food, it is 
I think important for us to have a sense of what the 
relationship between obesity and access to food is.
    Food insecurity was mentioned, and one other area that has 
to do with USDA that is worth looking at is, how we think 
differently about what kinds of foods we subsidize production 
of so that we can make the availability and access to the 
healthy foods that we are talking about actually affordable to 
those folks who live in communities where they may not even 
have access to a supermarket where those kinds of foods are 
available.
    Then, when they show up, and they look at the list of 
things that we have advised that they ought to be eating, they 
say, ``You know what, we can't afford this. We need to buy the 
beans, and we need to buy what is in the can and pretty 
cheap.''
    We need to figure out how we make the healthy choices the 
easy choices, and I am not sure that we talked so much about 
that. Access to affordable healthy foods in communities that 
might otherwise not have access is something that I think is 
really important to consider.
    Mr. Udall. Let me just thank you, all of you, again and say 
to Senator Bingaman that I have watched over the years in my 
work in the House how he has worked on healthy kids and moving 
New Mexico forward. I really look forward to joining him in the 
Senate and working with him on this issue in just a very short 
period of days.
    Thank you, Senator Bingaman, for your invitation today.
    Senator Bingaman. No, thank you very much for 
participating, and I know you are strongly committed to making 
progress on this. I am, too.
    Thank all of you for coming, particularly our witnesses 
from out of State, and those of you from New Mexico as well. I 
thank you, all of you who attended. I think this was a useful 
hearing. We have got some good suggestions for actions we need 
to take in the next Congress, and we will try to do that.
    That will conclude our hearing. Thank you very much.
    [Whereupon, at 11:43 a.m., the hearing was adjourned.]

                                   

</pre></body></html>
